<html>
<title> - H.R. 2205, LEGISLATION TO ESTABLISH WITHIN THE SMITHSONIAN INSTITUTION A NATIONAL MUSEUM OF AFRICAN- AMERICAN HISTORY AND CULTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
H.R. 2205, LEGISLATION TO ESTABLISH WITHIN THE SMITHSONIAN INSTITUTION 
                     A NATIONAL MUSEUM OF AFRICAN-
                      AMERICAN HISTORY AND CULTURE
=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION


                               __________

              HEARING HELD IN WASHINGTON, DC, JULY 9, 2003

                               __________

      Printed for the Use of the Committee on House Administration








                       U. S. GOVERNMENT PRINTING OFFICE
89-029                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut,
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                 George Shevin, Minority Staff Director



                              ----------                              


                        WEDNESDAY, JULY 9, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.

    The committee met, pursuant to call, at 2:40 p.m. in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Mica, Linder, 
Doolittle, Larson, and Brady.
    Staff present: Paul Vinovich, Staff Director; Jeff Janas, 
Clerk; Jennifer Hing, Assistant Clerk; Fred Hay, Counsel; 
George Shevlin, Minority Staff Director; Charles Howell, 
Minority Chief Counsel; Matt Pinkus, Minority Professional 
Staff; and Catherine Tran, Minority Staff Assistant.
    The Chairman. The committee will come to order. Good 
afternoon. Today the Committee on House Administration is 
conducting its first hearing to begin the consideration of H.R. 
2205, which establishes within the Smithsonian Institution the 
National Museum of African American History and Culture.
    I would like to thank all of our participants in today's 
hearing for providing us with their valuable insight on this 
important piece of legislation not only to the Nation, but I 
think to the world as people visit Washington, D.C. I would 
also like to give special recognition to Representative John 
Lewis, who has worked tirelessly on the legislation since 1988, 
as I understand it.
    Congressman Lewis is a remarkable individual with an 
incredible history himself. I know he will persevere and carry 
out all efforts.
    This will be, I think, a legacy that will make everyone 
proud in this country. I believe it is fair to say that we have 
made substantial progress recently. We are closer now to this 
addition becoming reality than we have ever been in 15 years.
    In 2001, President Bush signed Public Law 107-106, which 
created a Presidential Commission to research and evaluate 
issues related to the establishment of a proposed African 
American Museum and developed a plan for action to bring this 
issue to reality. This Presidential Commission should also be 
applauded for their diligent work and research on the proposed 
museum, and their hard work should prove beneficial to bringing 
this long-awaited concept to fruition.
    As is often the case around here, most, if not all, Members 
will agree on a common goal. In this case, the establishment of 
the museum envisioned by our sponsors is the common goal. There 
will be differences of opinion on the process and structure. 
This hearing should provide useful information that will guide 
us as we work through these differences to achieve that goal.
    The primary purpose of today's hearing is to provide 
members with the information they will need to make sensible 
decisions on the site location of the museum, how fund-raising 
acquisitions will work and how the museum will be governed 
within the Smithsonian Institution. With this background, it is 
my hope that we can build a consensus to pass a strong piece of 
legislation that will have long-lasting benefits for 
generations to come.
    I also want to acknowledge--I acknowledged Congressman 
Lewis, but also Congressman Jack Kingston, a great supporter of 
this measure and a person who sits on the committee that has 
the purse strings which are very important in this building; 
and, of course, our delegate, Congresswoman Eleanor Holmes 
Norton who has been a tremendous--not just on this issue but 
other issues. Supporter of the great Nation's Capital, which is 
our second home. Ohio is my first, a great State, and this is 
our home.
    With that, I would defer to our ranking member, Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman. Let me echo your 
sentiments. Also in joining our distinguished panelists, 
Eleanor Holmes Norton, Jack Kingston and, of course, John 
Lewis.
    Mr. Chairman, our hearing today is a demonstration of the 
power of an idea. This is an idea that is a long time coming. 
You certainly have to congratulate Mr. Lewis, as you have done, 
for his perseverance and his persistency in the manner in which 
he has approached this legislation, as you have noted, dating 
back to 1988.
    This idea actually was first conceived during the 
administration of Woodrow Wilson and picked up a great deal of 
steam in 1929, but then because of the events of the Depression 
and the subsequent war, it was not until the vision of Mr. 
Lewis, who is a living legacy and a national treasure in his 
own right, that he was able to put forth this concept and bring 
it to fruition. I want to commend him and Mr. Kingston. I am 
proud to be a cosponsor of this bill.
    As always with the first lady of Washington, D.C., Eleanor 
Holmes Norton, it is a pleasure to have her insighthere. This 
is an important hearing for us to hear from the various panelists about 
the concerns that they have raised. But as the chairman points out, 
this is on a fast track. It is important that we move forward. We are 
pleased to see that the Senate has already taken action, and I am 
pleased to see that the committee has moved with all due speed to take 
up H.R. 2205 and bring it to the floor.
    We anxiously await the comments from our panelists. Thank 
you so much.
    The Chairman. Thank you. Are there any other members that 
would like to make a statement?
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. I am pleased to see that 
this legislation is being considered. This, of course, is the 
appropriate forum. I do have some concerns about the 
legislation and what I have reviewed. I have some concerns also 
about several of the sites that have been proposed for a 
potential structure.
    First of all, I would be adamantly opposed to any site on 
The Mall. I think that this would set a precedent that would be 
unfair to all the other racial and ethnic group that make up 
the family of the American community.
    I know of no other racial or ethnic group--now we have put 
the Native American museum on The Mall. And as we can see, we 
are starting to fill out The Mall. I think an additional 
structure on The Mall would be detrimental. I think we should 
really look at the policy that we have as to what additional 
structures go on The Mall.
    The question is also of fairness to other ethnic and racial 
groups. I happen to be--my mother's side is Italian American. 
They have made incredible contributions to this country. My 
father's side was Slovak American, and they have done the same. 
But at some point we have to be fair to all racial and ethnic 
groups. If we put on The Mall a specific building dedicated to 
one group, I believe that is unfair.
    I do believe that there is a tremendous rich cultural 
heritage, and contributions of African Americans should be 
recognized and done so appropriately by our leading 
institution, the Smithsonian. And I think that there are 
several locations where that could be done and I think it is 
the proper and appropriate role of the Smithsonian to recognize 
the accomplishments of both racial and ethnic groups. But I 
think we have to be very careful in, again, where we locate 
this facility and how we locate it.
    Additionally, I would like to see and have recommended 
before an additional site, in addition to those on the map 
considered, and that is the Federal Trade Commission building, 
which is close to The Mall, which has outlived its usefulness 
as far as the Federal Trade Commission. It is one of the most 
historic and beautiful buildings and it is also close to where 
visitors congregate. I had recommended that that be looked at 
for additional space either by the National Gallery or the 
Smithsonian or the Archives. I would like to see that part of 
any proposal possible as a location to house such an 
exhibition.
    So I think it is important that we do establish a sound 
policy, that we don't litter The Mall with additional buildings 
to each and every one of the great groups who again have made 
the country it is today; and then step back and say, What have 
we done and have we done this fairly with a fair policy?
    With that, I raise my concerns and I look forward to 
hearing from the witnesses and more on the legislation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman from Georgia, Mr. 
Linder.
    Mr. Linder. Thank you, Mr. Chairman. I just would like to--
I may not be able to be here long enough for the second panel. 
So I just want to recognize my friend of 25 years, Bob Wright, 
who did what I did, he started out dealing with patients and 
wound up dealing with issues and has had a huge success. I am 
happy to have him here and happy to see him involved.
    Welcome, Bob.
    The Chairman. Would any other members like to make a 
comment?
    If not, with that we will proceed on to the panel. I want 
to welcome our distinguished colleagues. We will start with 
Congressman Lewis.

STATEMENT OF HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF GEORGIA

    Mr. Lewis. Thank you very much, Mr. Chairman. Thank you for 
those kind words.
    First, Mr. Chairman and all the members of the committee, I 
want to commend you for holding this hearing on such an 
important piece of legislation. H.R. 2205, the National African 
American Museum History and Culture Act.
    Thank you, Ranking Member Larson, for your commitment to 
making this bill a top priority.
    I want to thank Representative Jack Kingston from my home 
State of Georgia for his support of this legislation in the 
House and also my friend and colleague for many, many years 
during the early days of the civil rights movement when we were 
only teenyboppers; Delegate Norton from the district for your 
help and support.
    I want to thank Senator Brownback and Senator Dodd for 
passing the companion African American Museum legislation in 
the Senate.
    As you know, there exists no national museum located in our 
Nation's Capital on the National Mall that is devoted to the 
documentation of African American history. That is why 
Representative Kingston and I have introduced H.R. 2205. This 
legislation authorizes the establishment of a National Museum 
of African American History and Culture within the Smithsonian 
Institution. H.R. 2205 also directs the Smithsonian Board of 
Regents to designate a museum site from four specified sites, 
the Capitol site, monument site, Arts and Industries Building 
and the Liberty Loan Building.
    In the South, many, many years ago, I remember it very well 
when people of color could not enter through the front door of 
many homes and businesses. A national African American Museum 
should be in the front yard of the United States Capital. The 
National Mall and the space around it is the front door to 
America; it is a symbol of our democracy. I firmly believe that 
a national African American Museum should not be off the 
National Mall at some back door.
    Let us be frank and candid about the real concerns of H.R. 
2205. Let us meet these concerns head-on. I know that there are 
Members who have said that if the African American Museum were 
located on the Capitol site, it would create a security threat 
to the Capitol. Mr. Chairman, these security concerns unfairly 
imply that a national African American Museum would pose more 
of a threat than the United States Supreme Court, the Library 
of Congress, and the Capitol Visitors Center. Cars and trucks 
can get closer to the Capitol and congressional buildings by 
driving down Constitution and Independence than by parking at 
the proposed Capitol site. Frankly, I find it hard to believe 
that Congress cannot find a reasonable solution to these 
security concerns.
    During every session of Congress for the past 15 years, I 
have introduced legislation to establish a national African 
American Museum. In December, 2001, a major victory was 
achieved with the passage of legislation appointing a 
bipartisan Presidential Commission to provide a legislative 
blueprint for the creation of a National Museum of African 
American History and Culture.
    After a year-long study and more than 50 national and local 
town hall meetings, the Presidential Commission submitted its 
report to Congress and the President. This report served as a 
road map for H.R. 2205a and S. 1157. In the final report, the 
Commission concluded that there are many collections available 
to support a national African American Museum and that regional 
African American museums overwhelmingly support the 
establishment of a national museum.
    The Commission also strongly recommended that the museum be 
a part of the Smithsonian Institution on the National Mall. In 
fact, the Commission stated that designating a site in a timely 
fashion, was key to fund-raising efforts for a national African 
American Museum.
    It is my belief, Mr. Chairman and members of the committee, 
establishing a national African American Museum is our chance 
to take an important step to heal our Nation's racial wounds. 
There is still a lot of pain and hurt that lies deep within the 
American psyche. We cannot run from it. We cannot push it under 
a rug or in some dark corner. We must face it if America is to 
become a Nation that values liberty and justice for all 
Americans.
    Just yesterday, President Bush visited Goree Island where 
ships took Africans to America for a life of slavery. I agree 
with what our President said, ``that the very people traded 
into slavery helped to set America free,'' and that is exactly 
the type of legacy that a national African American Museum will 
honor.
    In the past few years, we have witnessed the building of 
the Holocaust museum and the Native American museum. I support 
these museums. But it is my belief that no other group in 
America has suffered longer under such a vicious and evil 
system of oppression than African Americans, over 300 years of 
slavery, years of segregation and Jim Crow laws.
    The time is long overdue to recognize the contributions 
African Americans have made to our country, including the 
building of the United States Capitol. The time is right. The 
time is now. We must let it be done on our watch and create a 
National Museum of African American History and Culture.
    When we began this journey, I often said that we must pace 
ourselves for the long haul. Well, we have paced ourselves. We 
have been patient. The Commission has submitted a thorough and 
complete report. The Senate has acted and passed legislation 
establishing a national African American Museum. Now it is time 
for the House to do its job.
    Mr. Chairman, and members of the committee, I ask for not 
only your commitment to move this bill in a timely manner, but 
also your assistance in finally bringing H.R. 2205 to the House 
floor before the August recess. I look forward to working with 
you in a bipartisan manner to make sure we pass H.R. 2205.
    Thank you Mr. Chairman, Mr. Ranking Member and all members 
of this committee. Thank you.
    The Chairman. I thank the very distinguished colleague for 
his testimony.
    [The statement of Mr. Lewis follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC] [TIFF OMITTED] 89029A.002
    
    The Chairman. Congressman Kingston.

 STATEMENT OF HON. JACK KINGSTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Kingston. Thank you, Mr. Chairman, Mr. Larson and 
members of the committee. It is good to be with you today. I 
certainly appreciate your holding this hearing today.
    I want to point out that while I am one of the authors of 
this, there are many, many cosponsors from both parties and of 
all races, so this does have wide support in the House. As my 
colleague Mr. Lewis has pointed out, it has already passed the 
Senate, so we really appreciate the leadership this committee 
has shown by moving it a step forward.
    Mr. Lewis, I wanted to commend him on his work. He started 
this project several years ago and had as an original cosponsor 
then Mr. J.C. Watts. I have kind of taken Mr. Watts' slot in 
terms of my name, but I would never be able to take his slot in 
terms of my person; I am aware of that. But I am proud to be 
sitting up here with my friend John Lewis and also with Mrs. 
Holmes Norton. I appreciate everything that they have done.
    The idea behind this, in my opinion, is that the history of 
African Americans is our history and it is our culture.They 
have been here since the beginning and have made this country what it 
is. We need to learn about that history--the good, the bad, the tragic, 
and inspiring. We need to learn it as we learn about ourselves. I think 
that the more we know about it, the brighter our future together will 
be.
    I was somewhat, you may say, on the front line of 
integration to the degree that as a child I started at an all-
white school system and then as I grew up, fifth grade on, it 
became integrated and more and more integrated to the extent 
that when I was a senior, there was no such thing as black 
schools or white schools as had there been when I was in first 
grade. But it stimulated a lot of interest to me into racial 
issues and racial, I guess, harmony--if not another word for 
it--because while I think Mr. Lewis and Ms. Holmes Norton were 
out there on the street making it happen, I was back in the 
classroom where it happened and got to know lots of black 
children as they got to know lots of white children. It was a 
very, very positive experience.
    Yet as we got to know each other, it was clear that the 
history books left out the chapter of black history. When I got 
to 10th grade, we came up with February as Black History Month, 
but what about the other 11? I often have mixed emotions about 
Black History Month because it implies it is only worth a 
month's study. This is not the case at all.
    The other thing about black history in America is, we tend 
to focus on the Civil War and the southern period. But, in 
fact, the African history began in colonial times. My cousin, 
for example, is a part owner of something called the Acacia 
Exhibit that is loaned to a museum, and it is on African 
American artifacts such as pottery, such as handwoven baskets 
and bits of fabric. It was truly of African design because 
these were people who, when they were in America, were still 
speaking in their African native tongue.
    Most Americans don't ever think about that period of the 
1770s and 1780s, and prior to then as well. A museum like this 
will highlight it.
    When I was in school, because of the lack of historical 
references to black culture, I began reading lots of books on 
it, books by Richard Wright and Malcolm X, Eldridge Cleaver and 
Dick Gregory and W.E.B. DuBois. Yet one of the ones I like the 
most was one called ``The Learning Tree'' by Gordon Parks. What 
that book did was explore racial relations without malice and 
without politics.
    As a school child, who again was in the classroom where the 
integration took place and therefore on the front line in some 
respects, I can say that the most racial reconciliation and 
progress I have ever seen is the kind that takes place without 
malice, where races can get to know each other and talk and 
talk openly. I think that is the type thing that Mr. Lewis and 
I envision in this museum--not a political platform, not a 
platform to point fingers, but a platform for understanding and 
therefore national racial reconciliation.
    To place it at the Nation's Capital is certainly a very 
important thing to do, to do it now. I think it is past time to 
do it.
    The discussion about the site, I think, is a worthy one. It 
is difficult any time we start talking about where on the Mall 
to put something, but I think that this committee, this 
Congress, has within its wisdom to come up with a satisfactory 
conclusion to that. I want to go, I guess, that far in terms of 
a reference to it.
    I look forward to working with members of your committee 
and Members of the House. Again, thank you for having the 
hearing.
    The Chairman. I thank the gentleman for his testimony.
    [The statement of Mr. Kingston follows:]
    [GRAPHIC] [TIFF OMITTED] 89029.025
    
    The Chairman. The gentlewoman from the District of 
Columbia, Congresswoman Eleanor Holmes Norton.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Larson, members of the committee, first 
let me say, Mr. Chairman, I appreciate your holding this 
hearing so promptly right after the Senate has passed its own 
bill, the bill before you.
    In a completely unrelated matter, Chairman Ney, I thank you 
for the courtesy you have always afforded me as the 
representative of the people who live in the city. Much of what 
comes before you affects these 600,000 people, and I always 
want to be sensitive to that fact and keeping this city open, 
as you once again said as you opened this hearing.
    Mr. Larson is a perfect Member to be a ranking member, and 
I appreciate all his courtesies as well.
    Your moving so promptly on this bill reminds me of the fact 
that, in one form or another, it has been around this Congress 
for 100 years; so your movement on the bill now is especially 
appreciated. This bill is in virtually every sense 
uncontroversial.
    The best way to understand that is that, in 1929, the 
Congress of the Untied States actually appropriated $50,000 for 
this museum. My friends, that was in a day when lynching was 
still going on in this country. That was in a day when the 
schools of the Nation's Capital were still segregated. Still, 
that Congress at a time when segregation was the law of the 
land was willing to say there ought to be an African American 
Museum. So I have no doubt that the notion of an African 
American Museum today in a far more enlightened America is not 
controversial at all in terms of where some controversy may 
lie.
    My own interest in this bill has several sources. When I 
came to Congress, I found that our good friend from the 
movement has come a session before and already had come forward 
to sponsor this bill. I have sponsored the bill ever since I 
came in 1991.
    I have been a member of subcommittee that also has 
jurisdiction over the bill, a subcommittee of the 
Transportation Committee. Indeed, as a member of that 
subcommittee, we have voted and actually gotten this bill out 
of the Congress. Out of the 103rd Congress we passed the museum 
bill. It was stopped by a Senator, who shall go unnamed in the 
Senate, and never got out of the Senate.
    I am a fourth generation Washingtonian, so I can say to you 
that for four generations my own people who came here before 
the Civil War, at least those who came here after they called 
for this museum, have been waiting for this museum. The people 
I represent, the 600,000 people I represent, have watched this 
debate for generations; they have been waiting for this museum.
    If I may say so, millions of Americans shave heard about 
this museum and have regarded it as a promise unkept. I 
appreciate that this committee has moved forward to keep its 
promise. This is not the furthest any Congress has come, before 
us, in getting toward a bill.
    Let me just say, I recognize Mr. Mica's comments, I 
recognize the comments of many of my colleagues about the site, 
and I can understand those comments. They need to be aired so 
that they can be reconciled. I appreciate that. I appreciate 
the way that they are brought forward so they can be discussed.
    At another level, I regret one thing about this bill. It is 
no secret to anybody, since I involve myself in every monument 
that comes here--the people I represent consider themselves the 
guardians of the monuments of this city--that it is unwise to 
have discussion of sites in bills, not our business, we don't 
know what we're doing. We have been able to keep that out of 
the bills almost always.
    The reasons that we simply don't involve ourselves in a 
discussion of sites normally is that we are talking about 
anoverdeveloped Nation's Capital. That is why we have a very extensive 
administrative process. If you want to build anything in this town, we 
take you through a lot of hoops and we have got to, because it is a 
compact city, it can never grow larger, it is the Nation's Capital.
    So none of us, no Member of Congress, no organization on 
the globe can talk about the design, the height limit, the 
massing, the aesthetics, the traffic patterns, the street 
access; all of that has to do with where things should be 
placed or whether they should be placed at all. So we normally 
stay out of that, and we should stay out of that. That has been 
my position; it will always be my position. This committee and 
the Congress itself has not violated this position.
    I made it clear to the people on the Commission, you are 
going to make a completely noncontroversial piece of 
legislation controversial by talking about sites.
    With that said, I want to talk about the only site that I 
think Congress has any business talking about at all, because 
it is the only site controlled by the Congress and that is the 
site at First and Third Streets.
    I recognize that even that site needs a lot of discussion 
before that is done. But the other sites in our tradition we 
simply don't speak about at all, because we have all kinds of 
mud on our face when the NCPC comes back and tells us or the 
Fine Arts Commission comes back and tells us that you can't do 
this, that or the other. So I ask that that process be 
respected.
    And if we in fact go with the Capitol site, we are going to 
have to go through a process as well. The reason that I think 
it is not yet appropriate for that site to be in that is that 
only we can speak to that site. It would require a 
congressional bill itself. Now I think that site is appropriate 
for the museum. It is one of the few vacant sites for which a 
building was specifically planned and does not exist. If you 
look at the 1901 McMillan plan, there is a building there. That 
building is meant to be the counterpart of the Botanic Gardens; 
it is meant to be a twin of the Botanic Gardens. So the Botanic 
Gardens is kind of off center. Everything else in the Capitol 
is quite symmetrical, the House and the Senate, and the Botanic 
Gardens doesn't have its mate yet. So it makes sense in terms 
of one of the most respected plans of Washington.
    It is interesting that when the Botanic Gardens was put 
there, it was called a ``living museum.'' so the African 
American Museum would face another museum as far as I'm 
concerned there.
    I must say, the one thing that would make me impatient--if 
you don't want to build on the Capitol site, then you don't 
want to build on the Capitol site, but the one thing that would 
make me impatient would be if we let security concerns decide 
that we are not going to build on lands we own where building 
was always contemplated. I hope that this Congress will never 
be reduced to that kind of timidity and will not offer that 
concession to terrorists. I have no doubt that the Capitol 
Police can protect any museum the way they protect the Botanic 
Gardens.
    Finally, let me say that there is a unique symbolic 
importance to that site. The Civil War veterans called for a 
monument at that site. They had been dishonored 50 years before 
that then when, despite having served, many of them as slaves 
in the Union Army, they were kept from marching with the Union 
Army down Pennsylvania Avenue, commemorating the victory of the 
Union Army; and they said, Goodness, we've got to have a 
monument maybe to remind people of what African Americans have 
meant to this country.
    Congressman Davis and I cosponsored a task force that 
actually passed the House that said that there ought to be an 
appropriate commemoration for the fact that the Capitol itself 
was built with slave labor and the labor of free blacks and, of 
course, others as well. I can think of no more appropriate way 
to honor the fact that the very Capitol where we do our 
business was built with slave labor than to have a site close 
by that is the site of the museum.
    Having said all that, Mr. Chairman, may I say that 
differences may arise concerning the site. That is a matter for 
another day. I just ask that we pass this bill and deal with 
the site matters later.
    The Chairman. I want to thank the gentlelady for her 
testimony.
    [The statement of Ms. Norton follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.003
    
    [GRAPHIC] [TIFF OMITTED] 89029A.004
    
    [GRAPHIC] [TIFF OMITTED] 89029A.005
    
    The Chairman. Just a comment on that. I just have a couple 
of questions, and I will yield to the rest of the members; but 
I don't think that at the end of the day--and that is why we 
are having this hearing--that there is something in there that 
is going to be so polarized. The Senate takes its action, and 
this gives us a deliberation on the ability to look at the 
legislation, to talk about it.
    I can't imagine at the end of the day that there is 
something that polarizes so much the two Chambers that we don't 
pass it. I can't imagine that happening. That is why--the 
purpose of this hearing is to task those questions.
    I appreciate all three of your testimonies. One thing I did 
want to ask, whether it is of the sponsor or the cosponsor, the 
Presidential Commission did evaluate five sites for the museum 
since we are talking about sites. I just wondered what the 
rationale is for the removal of the fifth site, because the 
legislation, as written, has the fifth site removed. I just 
wondered the rationale for not putting in there all five sites 
that the Presidential Commission had evaluated.
    Mr. Lewis. Mr. Chairman, the only thing that I know, to be 
very candid and very frank with you, I think it was leading 
members of the Senate that were sponsors of the legislation had 
some concern that the Overlook site was too far from The Mall. 
Members of the other body, some felt very strongly that this 
museum should be as close to The Mall as possible.
    The Chairman. Do any of the other members have any 
comments?
    The only reason I mention that, I can't sit here and tell 
you that I have a site that is a superior site in my mind or 
the worst site in my mind. But as you look at the sites up here 
on the screen, and that is why I wanted to ask the question, it 
seems that the Commission recommended five. Then if we had the 
five, some people would say, one other site is too close, it 
should have come out.
    I wondered if that came from the Senate, because five were 
recommended and five were up for grabs, and I don't know which 
site would be picked or not. I just wanted to kind of clarify 
where that came from. That helps me with that.
    The other question I would like to address of all three of 
our colleagues, in the Commission site, the recommendation 
seems to emphasize, obviously, historical and symbolic 
considerations. Do you think any of the economic development or 
space problems or economic development problems should be also 
considered in this, or should we look at it just from a 
historical perspective of sites?
    Ms. Norton. Mr. Chairman, if I can clarify that, I think 
each of these sites has enormous economic development potential 
for the District of Columbia. I have not looked at each of them 
in a disparate fashion in that way. I think each of them does 
have that potential.
    The Chairman. The one waterfront site had economic 
development perspective from the city; Washington, D.C., was 
looking at that site, where it is being pointed to now, had an 
economic development interest there. The city was trying to 
revitalize. That is why I wondered if anything was taken into 
consideration by the Commission when they looked at that, if 
that was part of their rationale of putting it in.
    I wondered if you had any comments, what you thought about 
the economic development side of considerations.
    Ms. Norton. The Overlook site is considered a prime site. 
it has enormous potential looking down on The Mall on the one 
hand and looking toward the river on the other. I am not sure 
why--this notion about--while I am very sympathetic to The Mall 
for a museum and particularly given a museum for African 
Americans, the history of it and its 100-year promise to put it 
there, I am not one of the devotees of putting everything on 
The Mall.
    I think our generation will go down in infamy for having 
tried to use up The Mall, meant for perpetuity, for our own 
egos. So you will not find me easily saying something should go 
on The Mall. As it is, The Mall is overcrowded and 
overdeveloped.
    I can understand that this has been an outstanding 
matterfor The Mall for so long, that we have allowed every other kind 
of museum to get there and so it would come very hard on African 
Americans to say you're too late because we made you too late, so you 
can't go to The Mall. My own sense is that you get rid of part of that 
by putting it on the Capitol, the site near the Capitol because that is 
not technically The Mall.
    The Chairman. Thank you. I have one other question and we 
will move on to other members.
    The cost for the museum has been estimated at $360 million. 
I just wondered if you were comfortable with that figure. Some 
of the museums, the Native American Indian museum had a two-
thirds/one-third split. I think this is 50/50 private sector. 
Each has been a bit different. The Holocaust was paid for 
totally by private funds, but that is not under the 
Smithsonian. So each have been different figures.
    I think this was estimated at $360 million. I just wondered 
if everybody is comfortable with trying to achieve that goal. I 
mention that in lieu of the Visitors Center, which I support 
fully, which I will take a 10-second privilege to just say that 
9/11 changed what we did there; 9/11 caused security changes, 
whether a 143-day delay or whatever. So I am comfortable with 
it.
    I don't want people passing out as they come to visit this 
Nation's Capitol, or 3,000 people trying to share two rest 
rooms in the Capitol. So I am very comfortable with what we are 
doing. I want to make that clear right out front with the 
Visitors Center.
    And I am comfortable with spending the money personally on 
this project, too. I just wanted to see if we are comfortable 
that that figure will do it.
    Mr. Kingston. Let me say this: As you know, the bill does 
not specifically have any design money in there that would be 
able to qualify us to answer the question, but what I would 
like to see, as someone involved with the Capitol Visitors 
Center, is the mistakes that we have made on that, that they 
are not repeated.
    Apparently, we made a lot of mistakes when we did the 
renovation of the Botanical Gardens, yet did not make the 
changes. The Capitol Visitors Center seems to have lots of 
different bosses, lots of different people giving opinions and 
change orders and so forth.
    It is my hope, in working with members of your committee, 
that we can come up with some processing changes inside the 
Capitol that we could avoid some of the pitfalls, so that if we 
go after a project, and say the project is $350 million, then 
we know with certainty that is going to be what it costs, and 
if it doesn't cost that, then the contractor will pay the 
difference because it should be a bonded type job and there 
shouldn't be change orders and so forth. That is where we, as a 
Congress, have to act more like the private sector.
    I know that--Mr. Mica and I have had lots of discussions 
about how we can improve the CVC. Mr. Chairman, even though you 
and I have spoken, nothing compared to your colleague over 
there on the right.
    The Chairman. I am glad we have now publicly admitted that 
we have strapped the Architect of the Capitol with a bunch of 
change orders that forced him to have to deal with those costs. 
So we have got that settled. I think Mr. Mica will be happy 
with that.
    Mr. Kingston. One of the bosses.
    Mr. Mica. Will the gentleman yield?
    The Chairman. One second, because I am afraid once I yield 
to you, I can't get you back.
    On this topic, you do raise a good issue; and we should 
decide what would be in there, and that way the project manager 
of this will not have to run into what the Architect of the 
Capitol has had to run into, of orders and a lot of bosses.
    And not that the changes were bad; some of the ones you 
can't control, but I just want to make sure that we are 
comfortable that money is going to have to be spent here. I am 
comfortable with it personally. That way we do a project, we 
get things in order, and we know we are going to have tospend 
some money, $300-and-some million.
    I am not saying that that is not worth the value of what 
this is going to bring for hundreds of years to come in this 
country. I think your observations are good.
    Mr. Kingston. Another footnote to that is, unlike the 
Capitol Visitors Center, there are lots of folks that want to 
donate to this. And so actually if you have to go back to the 
well, it will probably be a lot easier to get it from the 
private sector than it would be through Congress.
    The Chairman. Mr. Mica.
    Mr. Mica. Just to set the record straight, we were raising 
private funds, and I helped host the last private fund-raiser 
for the Capitol Visitors Center on the evening of September 10 
and all fund-raising private was cut off after that because of 
the situation we faced nationally.
    Also, just to clarify the record, it is estimated--Mr. 
Chairman, to you, a question--that this would be--about $360 
million is the estimate?
    The Chairman. Yes, by the time it would be completed, the 
estimate is $360 million.
    Mr. Mica. The mere point I wanted to state for the record 
is, it is about 350,000 square feet, is what I am told. The 
price, about $360 million.
    Just for the record, the Visitors Center is about 500,000 
square feet, in the similar range of funds; just so that that 
is made part of the permanent record for all those legislators 
who want to see cost. And I have no problem, Mr. Lewis, Mr. 
Kingston, Ms. Norton, with spending this money. I want it to be 
the best museum we have ever built when we complete it, but I 
just want people to understand that costs, particularly those 
that go up----
    Mr. Kingston. If we can hold the CVC to the same price as 
the African American history museum, it would be a----
    Mr. Mica. We will more than do that, Chairman Kingston.
    Thank you, Mr. Chairman.
    The Chairman. Reclaiming my time from this great duo here, 
you can see the continuation of what we are seeing on the 
national nightly news tomorrow night, a program that I am sure 
will be entertaining from all sides of the issue.
    Mr. Kingston. I just want to know if we can crank up those 
private fund-raisers again.
    The Chairman. I will point out on the Visitors Center, too, 
somebody had said, you would have the U.S. Chamber of Commerce, 
they kind of liked that wing. Also, remember, you will have the 
AFL-CIO. They didn't like that so much.
    So I think the idea to fund taxpayers on the Visitors 
Center was good. I think the idea of public support on this as 
a match is good. It is appropriate.
    Mr. Larson.
    Mr. Larson. Thank you very much, Mr. Chairman.
    Getting back to the topic at hand, let me also add 
parenthetically and thank the sponsors in section 7(b) for 
including an opportunity to bring the Amistad and all the 
beneficial education and teaching opportunities that will 
provide.
    I was honored to lead the Congressional Black Caucus to my 
home State of Connecticut for the christening, and the tolling 
of the bell 53 times for those slaves who lost their lives. And 
the great history that we share in this House of 
Representatives with former President John Quincy Adams, who 
was both President and served in this House, and tried this 
case before the Supreme Court, is just one small bit of rich 
history and again demonstrates not only the necessity, but the 
great educational value and tool that this will provide the 
Nation.
    Mr. Lewis, in your comments--and Mr. Kingston and Ms. 
Holmes Norton could also comment on this--you raised the issue 
of security. That is an issue that some of the other panelists 
that will follow you are going to comment on. I wanted you to 
have an opportunity to more fully express your concerns with 
respect to that, why you think these issues can be overcome and 
how you see this moving forward.
    All of our conversations, it seems lately, as it relates to 
the Capitol, deal with this very delicate balance of providing 
access and security at the same time.
    Mr. Lewis. You know, Mr. Chairman, I don't have to tell any 
of you, Mr. Chairman and ranking member, we live in a 
democratic society. Despite our concern about terrorism and 
violence and security, we don't want to create a police state. 
We don't want to lock down the Capitol.
    I remember when I came to Washington the very first time, 
in May of 1961--when I was 21 years old during the freedom 
rides; and then I came back again 40 years ago, on August 28, 
1963, for the March on Washington, I was 23 years old--we came 
up here on that morning. We met with members on the House side, 
the leadership both Democratic and Republicans, and we went 
over on the Senate side and the place was wide open.
    I have been back many times before becoming a Member of 
Congress.
    I just happen to believe that you are not going to have 
people marching and protesting at the national African American 
museum. You have people rallying around the United States 
Supreme Court, people rallying around the Congress. And we 
provide security.
    You see the young men and the young women working around 
the Capitol building, working around the Supreme Court and all 
the other Federal buildings. I think we have the ingenuity, we 
have the know-how to provide the security.
    I don't think--I want our Nation to be secure and the 
Capitol to be secure, but having a building that will bring 
balance to the Botanical Gardens on the Senate side, the 
Capitol site, I think it can be protected and help secure the 
Capitol when visitors come to the museum.
    It should be a concern but not an overriding concern.
    Ms. Norton. I would like to comment on that issue as well.
    First of all, I would like to congratulate the Sergeant at 
Arms, the Senate and the House and the Capitol Police for how 
they have, I think, readjusted to the post-9/11 world. They 
were not that way to begin with. Chairman Ney will remember 
that the first instinct was an instinct more worthy of Saddam 
than of this Capitol, to lock the thing down.
    The mention of the tours here is a by-product of that 
problem. You have got to have a staff with you. Now they want 
to bring it down to eight. Pretty soon it will be laughable to 
call it the People's House. And so what people have to do when, 
of course, you have an event like that is to think very 
seriously about their dual responsibilities, to somehow keep 
things as they were, but make them change so that you are 
secure.
    Let me show you what a sham argument the notion of security 
for this site is because that is what I am going to call it. It 
is the kind you can't let the Police Board and the Capitol 
Police go back to where they were.
    The site we are talking about, my friends, is a site that 
at the moment is so far from the Capitol that we let cars drive 
through there. You come down Independence Avenue, you want to 
get over to Constitution Avenue, turn left, go around one 
circle, then go around the other circle.
    Why do the Capitol Police let that happen when the Botanic 
Gardens is right there, if you're afraid that somebody could 
have a bomb? You can park your car right there with the Botanic 
Gardens right there.
    Why do they raise concerns now that we are talking about a 
building that would be opposite to the Botanic Gardens, where 
we already allow traffic to come even after 9/11, and we never 
stopped any traffic there after 9/11? There is no security 
argument.
    You are going to hear arguments like the siting of the 
Capitol. You are going to have a building there, you won't be 
able to see it. That is no argument against a museum.
    You have got to make security people be very specific about 
what they are afraid of and then say, okay, now what are you 
going to do about it? Not that we are afraid of you and 
therefore we give up.
    So I am impatient with talk about security that is not 
oriented toward solving the problem, but toward closing it 
down. I am particularly impatient with this site which, unlike 
the site in front of the Capitol, which has long beenclosed, 
understand that the site in back of the Capitol has not been. The 
reason is that it is so far from the Capitol that nobody conceives of 
it as a security risk. It is near the Botanic Gardens where thousands 
and thousands of people go in, day and night. Yet it has not been 
deemed a security risk. Now all of a sudden if we build on that site, 
this part of the Capitol becomes a security site. Nonsense.
    I don't think there are unsolvable security problems at 
this site.
    Mr. Kingston. I wanted to add, Mr. Larson, that in my 
opinion this museum is about reconciliation. It is not going to 
be a political headquarters. It is not going to be a civil 
rights club. If you want to grind your political ax, take it 
down the street some.
    Ms. Norton. To the Capitol.
    Mr. Kingston. Yeah, take it to the Capitol. Join the crowd. 
Pick your number. Bring your protesting sign and join the 
groups.
    This is going to be for history and reconciliation. I think 
it is very important to emphasize that. The Holocaust museum is 
in a different situation than this, because there is more of a 
political equation. There is more of a known, defined, visible 
opposition group. That is not the case here. I think that this 
is to going to be any kind of magnet for hate groups or oddball 
citizens who want to blow somebody up. That is just not the 
case.
    That is why this legislation asks the Smithsonian to run 
it, because we believe that they know how to put a museum of 
history together and to not stir things up, but to answer 
questions and bring up important histories that will bring us 
together.
    Mr. Larson. I thank the panelists for amplifying their 
concerns. With that, I will yield back.
    The Chairman. I thank the gentleman.
    Additional questions? Mr. Mica.
    Mr. Mica. Thank you. Thank you, Mr. Chairman.
    I tend to agree with the panelists, Ms. Norton and I think 
Mr. Lewis also; the security issue is a bogus issue. If we 
can't protect the security for this facility, no matter where 
it is built, there is something dramatically wrong.
    And I am glad to hear Ms. Norton--I appreciate your 
comments, Ms. Norton. The point I raised about site and we 
don't want to get bogged down into that, is the question, the 
overall question of what The Mall is going to look like in 50 
years or 100 years. This is a policy question, too.
    Do we devote portions of The Mall, sections of The Mall and 
construct buildings all the way along The Mall in the future to 
recognize different ethnic and racial groups that have 
contributed or suffered or whatever in the history of the 
country? And I don't want to diminish in any way what African 
Americans have suffered or contributed to this great Nation.
    Again, it is a policy-setting question of importance and, I 
think, significance to the Congress, because the Congress 
passes these bills and we site monuments and structures along 
the way. It is not really a question, but I think we view this 
in a similar fashion.
    Ms. Norton, you had said the plan--and we do have some 
issues over the Capitol site--was orginially planned in balance 
with the Botanic Garden. But it is my understanding the Botanic 
Garden is a structure of some 47,000 square feet, and the 
proposed structure is 350,000. Would all of that be above 
ground or is part of the plan to balance it as far as size of 
the structure on both sides?
    Ms. Norton. I don't know the answer to that question, but I 
think the Commission, which is going to testify after us, may; 
or some of my colleagues may know whether any of it will be 
below ground.
    Mr. Mica. Because you did speak to the question of a 
balance of structures. That, to me, would pose at least an 
aesthetic imbalance.
    Ms. Norton. I think some of the Botanic Gardens is itself 
below ground. So I am not sure that all of that would be space 
on the surface.
    Mr. Mica. Again, Mr. Lewis, I thank you for yourcomments. I 
hope you see my point, though, about the long-term planning of The Mall 
and how important that is.
    Again, in no way to diminish any of the contributions you 
have made; I take you as someone that I am very proud of. I 
don't think I have a student group, if you are in sight, that I 
don't point out the tremendous contributions that you have made 
not only to the African American community but to the United 
States and the Congress.
    I hope the site policy question can be answered and then we 
can do that in fairness to everybody. I hope you appreciate 
that.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Additional questions? Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I am the only non-African American or non-
minority Congressman in this United States Congress that 
represents a minority district, so I can associate myself with 
Mr. Kingston's remarks about how you grow up. I am still 
growing up and still living in the city of Philadelphia with a 
minority population.
    I think that prejudice still exists. I think that passing 
this bill and putting this museum, building this museum, 
constructing this museum will speak volumes to that. It will 
let the rest of the country know and the rest of the world know 
how we feel.
    I happen to also agree with the lady from the District of 
Columbia. This is our second town, but this is her town, her 
first town. She is the keeper--as she says, the people that she 
represents are the keeper of these museums. Who should know 
best where to put it? Who best should know that it should 
definitely get built? I would respect the knowledge that you 
have and the people that you represent, and telling me when I 
go back to Philadelphia as quick as I can, many times, that 
this is where it should be.
    Mr. Lewis, I have the utmost respect for you of anyone in 
this Congress. You walked the walk and you have talked the talk 
and you have been there. I want to say I probably respect you 
more than anyone in this Congress.
    I am going to do what you want to do. I am going to pass a 
bill that you want to pass and I am going to be supportive of 
building it where you want to build it. You have that respect 
due you.
    As far as security and terror, terror only exists when you 
are terrorized. That is what the word means. And security? We 
are not secure where we go, anyplace we go. If anybody wants to 
take a shot at us, they can certainly take a shot at us 
anywhere. You walk across that street in a dark suit and 90 
percent of the time you are going to be all right if you want 
to do something. So I am not going to live my life in fear of 
terror nor is my family.
    Security--I have empathy for the police officers. My father 
was a police officer. The Capitol Police and our Sergeant at 
Arms, I was a Sergeant at Arms at one time. I remember when we 
had a bomb scare or a scare right after 9/11 on our building; 
we were running out, they were running in. They try to do the 
best job to deter the terror--security. But I don't think 
either is an issue.
    I think this needs to get built. I am proud to be a part of 
making it happen. Again, I would acquiesce to the knowledge of 
my dear colleagues on where it should get built.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Are there any other members who have additional questions?
    If not, I want to thank the distinguished panel and we will 
move on to Panel 2. Thank you.
    Mr. Mica [presiding]. I would like to go ahead and ask the 
second panel to be seated. Let me introduce them as they take 
their seats.
    I want to welcome our panelists to the table. First, Mr. 
Robert Wright, Chairman of the Presidential Commission of the 
National Museum of African American History and Culture; also 
Mr. Lawrence Small, Secretary of the Smithsonian Institution; 
and additionally, Mr. Charles Cassell, Vice President of 
theNational Coalition to Save our Mall.
    I want to thank all of our witnesses for being with us. 
Come right up. Grab a seat. Make yourself at home.

  STATEMENTS OF DR. ROBERT L. WRIGHT, CHAIRMAN, PRESIDENTIAL 
  COMMISSION, NATIONAL MUSEUM OF AFRICAN AMERICAN HISTORY AND 
 CULTURE, ACCOMPANIED BY CLAUDINE BROWN, VICE CHAIR, ROBERT L. 
WILKINS, MEMBER AND CHAIR OF SITE COMMITTEE, AND HOWARD DODSON, 
     MEMBER; LAWRENCE M. SMALL, SECRETARY, THE SMITHSONIAN 
 INSTITUTION; AND CHARLES I. CASSELL, VICE PRESIDENT, NATIONAL 
    COALITION TO SAVE OUR MALL, ACCOMPANIED BY GEORGE H.F. 
                     OBERLANDER, TREASURER.

    Mr. Mica. We do try to limit the testimony if we can.
    If you have documentation or additional information you 
would like to be made part of the record, please request that 
through the Chair.
    Let us begin with Mr. Wright. Mr. Wright, thank you again 
for coming.
    Mr. Robert Wright is chairman of the Presidential 
Commission of the National Museum of African American History 
and Culture.
    Welcome, sir. You are recognized.

               STATEMENT OF DR. ROBERT L. WRIGHT

    Mr. Wright. Thank you very much, Mr. Chairman. It is a 
great honor and a privilege to appear before you today as 
Chairman of the National Museum of African American History and 
Culture Plan for Action Presidential Commission. Our commission 
was composed of 18 distinguished individuals from across the 
country and four Members of Congress, two of which are no 
longer active.
    I would also like to recognize for the record, Mr. Chairman 
and members of the committee, Ms. Claudine Brown, who is our 
Vice Chairwoman, Howard Dodson, and Robert Wilkins from the 
Commission.
    The issue of establishing an African American Museum in 
Washington, D.C., is not a new idea. For nearly 100 years, 
going back to black veterans who helped save this country in 
the Civil War and the children of slaves who marched with them 
in Washington back in 1915 and the great grandchildren of 
slaves who launched a powerful campaign in the 1980s and 1990s, 
African Americans have pleaded for equal space and equal time 
on the National Mall. The work started by Union veterans and 
their supporters and descendants led to the 1929 legislation 
that authorized the construction of a national memorial 
building to serve as a museum and ``a tribute to the Negro's 
contributions to the achievements of America.'' Congress failed 
to appropriate funds for the building and now, 75 years later, 
despite the pleas of succeeding generations, the museum has 
still not been built.
    Our Commission's task under Public Law 107-106 was to 
create a fund-raising plan for supporting the creation and 
maintenance of the museum through contributions by American 
people and the African American community. In addition, we had 
to create a Report on Issues related to the planning. The 
issues addressed included the following:
          The availability and cost of collections to be 
        acquired and housed in the museum;
          The impact of the museum on regional African American 
        museums across the country;
          Possible locations for the museum on or adjacent to 
        the National Mall in Washington;
          The cost of converting the Smithsonian's Art and 
        Industries Building; and
          The governance and organizational structure from 
        which the museum should operate.
    Our Commission was divided into subcommittees, each with a 
subcommittee chairperson to research the various topics that 
were specified in the legislation. Our approach was twofold:
          One, to engage consultants who had expertise in 
        serving specific areas; and
          Two, to host town hall style meetings across the 
        country in lieu of a national conference to hear from 
        museum professionals, scholars and graduate 
        organizations in various regions of the United States. 
        These meetings were designed not only to solicit input 
        from the public, but also to publicize the movement to 
        develop the museum.
    Our Commission held town hall meetings in Chicago; New 
Orleans; New York; Topeka, Kansas; Detroit; Washington; and 
Atlanta, Georgia. Additional town hall meetings were planned in 
Los Angeles, Dallas and Oklahoma City, but were not held 
because of logistical and budgetary concerns.
    As we conducted these town hall meetings, we received an 
overwhelming response with regard to stories about the African 
American experience that should be addressed by this museum. 
They included some of the following:
          A true and uncompromising interpretation of slavery;
          The conditions aboard slave ships during the Middle 
        Passage.
    Other topics such as:
          The Tuskegee Airmen experience and their impact on 
        the modern day civil rights movement and the 
        integration of the military;
          The historic participation of African Americans in 
        America's wars;
          African American resistance during the slavery and 
        Jim Crow periods;
          Buffalo Soldiers and their contributions to the 
        development of the American West;
          The development of black businesses during the Jim 
        Crown era and their evolution to the present;
          Evolution of the African American church and its 
        contributions to the struggles for freedom; and
          Many, many, many others.
    In addition, we received comments regarding potential 
collections, impact on regional African American museums, 
possible locations, Smithsonian affiliation, governance 
structure and fund-raising. All of these issues were addressed 
and detailed in the final report that was submitted to the 
Congress on April 2, 2003. In this report, the Commission 
concluded the following:
    Across the board, private collectors and public 
institutions are more than willing to share their material-
culture resources and are willing to engage the proposed 
national museum in discussion as to how this might be achieved.
    A resounding 87.5 percent of museums surveyed supported the 
establishment of a national museum in Washington, D.C. None of 
the respondents opposed the plan and only 12.5 percent 
expressed concern that the national museum would pose 
competition in terms of attendance, collections or funding.
    The Commission concluded that a site on The Mall is 
necessary to implement the mission and the program of the 
museum. The Commission recommended the Capitol site as the 
preferred location and the monument site as a suitable 
alternative.
    After evaluating all the options and weighing opinions of 
experts and grass-roots organizations, as reflected in town 
hall meetings, the Commission decided that the most efficient 
way for the museum to develop and maintain itself as a 
comprehensive depository of African American history and 
culture is under the umbrella of the Smithsonian Institution.
    With regard to fund-raising, the common response from 
African American interviewees was that this museum is long 
overdue and that they would support wholeheartedly, including 
the provision of unprecedented contributions, volunteer time 
and even the donation of personal papers and collections. Many 
of the more affluent African Americans involved in this study 
indicated that they would be prepared to give ``sacrificially'' 
in order to see the dream of such a museum finally achieved.
    Raising $180 million from the private sector for the new 
museum will be a difficult task and will require aggressive and 
creative approaches to the fund-raising process. In order to be 
successful, there are four limits that must be secured:
          One, congressional authorization and initial 
        appropriation to allow fund-raising and friend-raising 
        to being concurrently with detailed planning;
          Two, the identification of a site;
          Three, an affiliation with the Smithsonian 
        Institution; and
          Four, a leading gift at the level of $30 to $50 
        million.
    There is a unique interest, level of interest, and deep 
emotion among prospective donors and the possibility of this 
museum. There exist many committed and visionary donors across 
the country who are eager to give. Dan Amos, Chairman and CEO 
of AFLAC showed his commitment by pledging the first million 
dollars toward the establishment of the museum.
    There are many others willing to participate, but in order 
to translate that interest into fund-raising solicitations, the 
Congress must take the first and essential step toward creating 
a public-private partnership of unprecedented proportions.
    Fund-raising cannot begin until the Congress and the 
President act and approve the legislation. This Commission is 
prepared to support the Congress in its deliberation toward 
that end, and we urge your passage of the legislation that is 
before you at this time.
    Our purpose could not be more timely. Issues of race and 
racism pervade our national life, and all of us must find ways 
to achieve racial reconciliation. This museum can serve our 
country as preeminent vehicle toward that end.
    Just yesterday, President Bush visited Goree Island, the 
place from which so many of my ancestors began their journey to 
this country. We believe that the fund-raising effort for the 
new museum will afford every American with a way to help 
achieve racial reconciliation in our country.
    In conclusion, I would like to thank Congressman John Lewis 
for his inspiring leadership, vision and tenacity, and also 
thank the numerous cosponsors of the legislation.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Wright.
    [The statement of Mr. Wright follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.006
    
    [GRAPHIC] [TIFF OMITTED] 89029A.007
    
    [GRAPHIC] [TIFF OMITTED] 89029A.008
    
    [GRAPHIC] [TIFF OMITTED] 89029A.009
    
    [GRAPHIC] [TIFF OMITTED] 89029A.010
    
    [GRAPHIC] [TIFF OMITTED] 89029A.011
    
    Mr. Mica. Let me recognize now--and we will take questions 
when we have finished hearing from all of our panelists--
Lawrence Small, Secretary of the Smithsonian Institution.
    Welcome back, sir, and you are recognized.

                 STATEMENT OF LAWRENCE M. SMALL

    Mr. Small. Thank you, Mr. Mica. I want to thank Chairman 
Ney and Mr. Larson for providing this opportunity to discuss 
the proposal to create within the Smithsonian Institution a 
National Museum of African American History and Culture.
    From its creation in 1946, the Smithsonian has remained 
true to its mission, the increase and diffusion of knowledge. 
It has become not only the world's largest provider of museum 
experiences that are supported by authoritative scholarship and 
science and history and the arts, but also an international 
leader in scientific research and exploration. With its 16 
museums and galleries, several research centers and the 
National Zoo, the Smithsonian offers the world a picture of 
America and America a picture of the world.
    The proposed new museum under discussion would certainly 
add to that picture and offer a vital service to the public.
    At their meeting in June of 2001, the Smithsonian's Board 
of Regents adopted the following motion:
    ``The Board of Regents endorses in principle the 
establishment of a National Museum of African American History 
and Culture by legislation that safeguards the Smithsonian's 
interests, including those relating to governance, funding and 
facilities.''
    First, with respect to governance, I am very pleased to see 
that the legislation now proposes a museum structure much like 
that of the other Smithsonian museums. We appreciate the work 
done so far to address the issues we have raised and believe 
that the majority of these have been addressed.
    With respect to facilities, the legislation requires the 
Board of Regents to choose from among four sites. When this 
legislation passes, the Regents will review the findings of the 
Presidential Commission, and they may want to conduct their own 
independent review before making a decision.
    The bill also calls for extensive consultation with 
representatives of the Presidential Commission and with various 
interested agencies. Ample time should be provided if these 
consultations are to be meaningful, and care should be taken to 
see that this aspect of the initiative is not rushed.
    Lastly, the funding for construction and operation of the 
new museum must be addressed. Simply put, the Smithsonian 
cannot afford to take on this new responsibility unless we are 
given the funds needed to carry it out. Analysis of our 
financial picture in the Smithsonian since 1993 shows that in 
our five largest museums, the ones that receive the greatest 
number of visitors, federally funded staffing has declined 17 
percent on average over the last 10 years. The National Academy 
of Public Administration concluded in 2001 that the Smithsonian 
faces a $1.5 billion backlog in our facilities maintenance 
program for existing facilities.
    We are scheduled to open two major new facilities in the 
next year and a half--the new National Air and Space Museum's 
Steven F. Udvar-Hazy Center at Dulles Airport that will open 
this December; and then, in September of 2004, the National 
Museum of the American Indian on The Mall. We also hope to 
reopen the historic Patent Office Building, which is home to 
the Smithsonian American Art Museum and the National Portrait 
Gallery in July of 2006. Just these three facilities alone, 
which represent a combined investment of $750 million, will 
also need to be maintained, in addition to all of our other 
facilities.
    The Presidential Commission estimated that it would cost 
$360 million to build a building similar in size to the 
National Museum of the American Indian. The Commission also 
estimated that it would cost $42 million each year to operate 
the museum once it is fully staffed. The Smithsonian cannot 
absorb amounts of this magnitude within its current budget.
    Finally, it is important to keep in mind that the new 
museum is being considered before its collection is identified 
and acquired. First, in establishing a new museum, a mission 
must be defined, and then the collections must be assembled to 
fulfill that mission. The Smithsonian will certainly pay 
careful attention to the Presidential Commission's findings on 
this subject, and we will also have to review carefully what 
the creation of this new museum means for the Institution's 
existing collections and exhibits.
    The Smithsonian would be honored to play a part in this 
project that will offer so much to visitors from across America 
and around the world. We are anxious to work with Congress to 
ensure the success of this endeavor.
    Thank you.
    Mr. Mica. Thank you, Mr. Small.
    [The statement of Mr. Small follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.012
    
    [GRAPHIC] [TIFF OMITTED] 89029A.013
    
    [GRAPHIC] [TIFF OMITTED] 89029A.014
    
    Mr. Mica. We will hear now from Mr. Charles Cassell, Vice 
President of the National Coalition to Save Our Mall.
    Welcome, sir, and you are recognized.

                STATEMENT OF CHARLES I. CASSELL

    Mr. Cassell. Good afternoon. Chairman Ney and members of 
the Committee on House Administration, the National Coalition 
to Save Our Mall is pleased to be invited to comment on H.R. 
2205, which would authorize the establishment of the National 
Museum of African American History and Culture here in the 
Nation's Capital.
    My name is Charles I. Cassell; I am Vice President of the 
Coalition. I have submitted my resume. The Coalition is a 
national not-for-profit education and research organization 
working to preserve the historic planned, open space area and 
symbolic meaning of The National Mall as our monument to 
American founding principles. Coalition board member George 
Oberlander accompanies me; President Judy Scott Feldman could 
not attend due to prior travel plans.
    Last October, the Coalition published its ``First Annual 
State of The Mall Report,'' which is an attached exhibit which 
you have, in which we stated:

    The National Mall--the unique National Park in the heart of 
our Nation's Capital--is under physical assault. The threats 
come from Congress, through well-intended interest groups and 
otherwise well-meaning citizens who wish to see more memorials 
or museums located on The Mall's dwindling historic planned 
public space. These assaults on The Mall's open space character 
threaten to change and undermine the historic symbolism that 
makes The Mall the premier democratic public space in the 
Nation and indeed in the world.

    H.R. 2205, by designating only four potential sites for the 
museum, three of them directly on The Mall, could lead to the 
further degradation of The Mall's symbolic open space.
    Please understand the Coalition enthusiastically supports 
the idea of the museum. We believe it is a worthy enterprise 
which is long overdue. We are grateful to Mr. Robert Wilkins, 
the chairman of the museum's site selection committee, who 
graciously spent time explaining to the Coalition and to the 
Committee of 100 on the Federal City his research, study and 
choice of preferred site locations.
    Let me say here that I am a second-generation native of 
Washington, D.C., and I am old enough that I remember 
segregation in Washington, D.C. We lived in our own 
communities. Our professionals practiced only in the 
communities except in unusual circumstances. Having grown up in 
that environment, even as I served in World War II and returned 
to the Nation, I experienced the same kind of segregation and 
deprivation on the basis of my race. So I am fully sympathetic 
with the idea of memorializing the struggles that African 
Americans have gone through, lo, these many generations.
    We are opposed, however, to any new museum construction on 
the public open spaces of The National Mall, and that includes 
the grounds of the Capitol and the Washington Monument site. Of 
the three potential sites on The Mall, only the Arts and 
Industries site, which would use an existing building, is 
consistent with the Commemorative Works Act which I think we 
have to remember was enacted by Congress to protect the 
L'Enfant and McMillan plans and The Mall's open public space. 
We would endorse the use of the Arts and Industries structure--
Building since the building is already there.
    The Capitol site, the site listed in section 8(b)(1) of the 
bill, is not consistent with the McMillan plan, contrary to 
what the 2002 preferred site analysis structure study 
indicates. In the McMillan concept, any building at that site 
would form part of the Federal enclave and would relate 
directly to the Capitol building and its legislative functions. 
A museum and the public and tourist activities associated with 
it was not envisioned for that site.
    The more recent current Capitol master plan for the future 
growth and development of the Capitol grounds shows nobuilding 
on that site and indicates, at most, a landscape element.
    The Coalition believes that the four potential sites are 
too few or limited as guidance to the Smithsonian site 
designation. In addition, there are other additional suitable 
possibilities.
    We urge the committee to insert language to allow for 
consideration of additional sites that either have been 
eliminated prematurely by the museum's selection committee or 
that were not considered by the site selection consultants, 
including but not limited to the Banneker/10th Street Overlook 
site and a new site identified in Exhibit 2, that you have 
before you, across Constitution Avenue from the Lincoln 
Memorial adjacent to The Mall. Accordingly, section 8(a)(1)(B) 
should include a paragraph providing further suitable locations 
to be examined and evaluated in relation to those already 
identified.
    In addition, we are very concerned that section 8(A)(1)(d) 
restricts consultations to the Chair of the Commission of Fine 
Arts and the National Capital Planning Commission and not the 
entire commissions themselves. That would deny the public any 
role since there would be no public hearings or meetings to 
express their point of view on location or design.
    This is unacceptable in the Coalition's view. A national 
museum is just that, national. The public must be given an 
opportunity for involvement. Therefore, we urge the committee 
to designate in the bill the crucial role of the reviewing 
agencies as established by the Commemorative Works Act and the 
other laws enacted by Congress for the review and approval of 
Federal public building projects in the Nation's Capital. This 
designation should also include the public, as is customary in 
the review and approval process, as the Secretary has 
indicated. Section 8(A)(1)(d)(3) should also include reference 
to the Commemorative Works Act as I have indicated.
    In conclusion, we urge the committee to:
          One, allow for the possibility of additional 
        alternative sites; and
          Two, to reaffirm the role of the review agencies and 
        the public in site and design review.
    That concludes our formal statement, Mr. Chairman. We are 
prepared to respond to any questions you may have.
    [The statement of Mr. Cassell follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.015
    
    [GRAPHIC] [TIFF OMITTED] 89029A.016
    
    The Chairman. I want to thank the panel for your testimony.
    Dr. Wright, I want to ask just a few questions. How many 
visitors a day will you envision that would come through the 
museum? I know it is a guesstimate.
    Mr. Wright. With your permission, Mr. Chairman, I would 
also like to defer that question to our vice chairperson, Ms. 
Claudine Brown. Ms. Brown.
    The Chairman. For the record, if you would like to state 
your name and title.
    Ms. Brown. My name is Claudine Brown. I was the vice 
chairperson for the President's Commission for the National 
Museum of African American Culture and History.
    Our projection is approximately 2 million visitors per 
year.
    The Chairman. You might want to remain for a second. How is 
parking contemplated, if it would be the Capitol site?
    Ms. Brown. Actually parking is not a part of our plan. And 
we are hopeful that people will use the same means and modes of 
transportation that they use to get to other Mall museums.
    So we suggest that a number of people will probably use 
public transportation, and they will park as they may in the 
general vicinity of the Mall.
    The Chairman. And then in the evaluation of the five sites 
that were recommended by the Commission, how does the Capitol 
site compare to the other sites with regard to proximity to a 
Metrorail station.
    Ms. Brown. Well, we know that the site that is closest to a 
Metrorail station is the Arts and Industries Building, because 
there is a station just a stone's throw from there.
    But we think that--I think that there is a station, but it 
is probably like about 4 blocks away from the Capitol site.
    The Chairman. One other question I have on the Capitol 
site, because security questions have been raised. I think some 
of the Members made good points, including Mr. Brady, on 
overall security of the Capitol. We try to do the best that we 
can do with it.
    But the Capitol site recommended by the Commission is 
within the security perimeter that surrounds the Capitol. At 
times access inside this perimeter to the perimeter can be 
severely restricted. For example, when the President visits, 
not to pick on the President and Vice President, but at certain 
times, or if there is a speech up on certain parts of the back 
front of the Capitol.
    And I just wondered, knowing that certain times there is 
restrictions or some security threats where we have an overall 
restriction of the Capitol proper, the Campus, was the 
Commission aware of this or did they consider it when the site 
was chosen, about the fact that there could be severe or total 
cutoff of access to the museum?
    Ms. Brown. I think that the Commisison considered a number 
of factors. One was that this site is as close to the Capitol 
as the Botanic Garden site. It is certainly not as close in 
proximity as the Visitors Center. We recognize that in the 
Nation's Capitol there are always possibilities of security, 
especially if the President is speaking, and that is kind of 
one of the realities that you live with. And we felt that it 
could be a reality in almost any of the sites that we looked 
at.
    The Chairman. Two other brief questions. Secretary Small 
indicated the collection that will be housed in the museum has 
yet to be identified and acquired. That is naturally 
understandable.
    Given that, how did the Commission arrive at its 
determination on the size of the museum? In other words, how do 
you know about the space you will need if we don't know the 
size of the collection yet?
    Ms. Brown. Well, in most museums the collection is not 
housed in the actual museum proper. But what we did look at is 
the program of the museum. We looked at the fact that we wanted 
a large permanent exhibition. We also knew that we wanted 
spaces for public programming and also that we would be working 
in conjunction with other museums around the country, and we 
wanted spaces for traveling exhibitions.
    We wanted some resource center space. So the program really 
determined how the space would be used. Not unlike the United 
States Holocaust Museum, we see a major part of this museum 
telling a narrative story. And in their process, they actually 
determined the story that they wanted to tell, and then 
collections were actually acquired after the fact.
    The Chairman. The other question would be how much of the 
proposed collections will you be gathering from other museums? 
Will they be permanent, or some of them temporary? Will that 
impact some of the museums? Are they willing to do that? Has 
there been any conversations with any existing museums or 
facilities that could help to enhance this museum?
    Ms. Brown. One of our charges under the legislation was 
that we communicate specifically with other African American 
museums just to make sure that we would have a meaningful 
relationship with then. And in doing so, I would say more than 
90 percent of those institutions were willing to lend objects 
and actually wanted to see a cultural exchange take place.
    What we are also hoping is that we can have the same kind 
of reciprocal relationship with other Smithsonian museums, not 
unlike some of the Smithsonian affiliates.
    The bigger issue, though, is that we would like to acquire 
collections with an informed plan and not begin to just get 
collections because people have them. We want to know what the 
narrative is and really have curators on board, and then let 
them make those decisions.
    The Chairman. I want to thank you for your time.
    Secretary Small, your testimony indicated that most of the 
concerns that were expressed about the proposed structure of 
this museum have been addressed in the legislation. Can you 
describe the standard structure of the Smithsonian museums and 
describe how this proposal would compare to that, and also how 
does it differ, if it does, and do you have any remaining 
concerns about the structure envisioned by the bill?
    Mr. Small. Thank you. As I indicated, as the legislation 
now stands, it is quite similar to the existing structure that 
we have. The museum would have an advisory board to help with 
outreach and fund-raising. The director of the museum would 
report in the way that we have currently in place in the 
Smithsonian. The budget for construction and operation of the 
museum would be part of the overall Smithsonian budget.
    So I think it very much fits within the current approach 
that we would use from a governance standpoint for the museum.
    The Chairman. I think it was one of our Members on the 
majority side that had raised an issue of future museums, which 
I think we do have to consider future museums, because we have 
the Native American Museum, and our committee has the 
responsibility to consider future as well as current proposals 
for museums.
    Have we received any contacts from other groups, such as 
Hispanic Americans or Asian Americans who have expressed 
similar interest of similar museums within the Smithsonian and, 
if we have, what are we talking about with feasibility and 
being able to do it? And would we have considerations of other 
sites within the proximity of the Mall? Do you have any ideas 
on that?
    Mr. Small. We at the Smithsonian haven't received any 
formal proposals in that regard. On the other hand, we have 
been involved in any number of public gatherings where members, 
for example, of the Hispanic Caucus have talked about a Latino 
museum. So, yes, we have heard mention of such things. But as I 
say, there is no formal process that I am aware of that is in 
place.
    The Chairman. Thank you. My last question is for Mr. 
Cassell, Vice President of the Coalition to Save The Mall. Your 
testimony references the Commemorative Works Act and their 
relationship to the L'Enfant and McMillan Plans for preserving 
The Mall.
    Can you elaborate a little bit on the Commemorative Works 
Act and your belief that future construction violates basically 
the intent of Congress?
    Mr. Cassell. Let me ask Mr. Oberlander, our expert, to 
respond to that.
    The Chairman. Can you identify yourself please for the 
record? Thank you.
    Mr. Oberlander. I am George Oberlander. I am the treasurer 
of the National Coalition to Save Our Mall. I am also a retired 
urban planner, having worked with the National Capital Planning 
Commission for 31 years as the Associate Executive Director for 
District Affairs. I am very familiar with the Commemorative 
Works Act and the planning activities in the Nation's Capital 
since 1965, when I came to Washington.
    I have also worked with the former Architect of the Capitol 
on the Master Plan for the grounds of the Capitol. So I am 
familiar with the planning jurisdiction of the grounds of the 
Capitol that are under the Architect of the Capitol 
jurisdiction and the Planning Commission's jurisdiction.
    The Commemorative Works Act was a way of trying to resolve 
the basic problems of preserving the historic character of the 
Nation's Capital Mall area. Normally people call the Mall the 
area from the Capitol Building all the way to theLincoln 
Memorial. However, technically the Mall starts at the foot of the 
Capitol grounds and ends at 15th Street. Then you have the Washington 
Monument Grounds, which are not technically the Mall, and then you have 
West Potomac Park, which is the area west of the Washington Monument 
Grounds, which most people call the Mall, but is technically West 
Potomac Park, according to the National Park Service Maps.
    The Commemorative Works Act was trying to resolve the 
problem, in the 1980s when this act was enacted, of the 
numerous memorial proposals. At that time the Vietnam Memorial 
was proposed, and it was placed on the National Mall. And then 
the Korean Memorial was proposed in an opposite location on the 
south side of the Mall.
    The Congress decided that it was necessary to establish 
criteria for where memorials might be placed in the future. It 
designated two different areas, Area 1, which is the central 
part of the Mall, the green panels between the trees and the 
areas to Pennsylvania and Maryland avenues, and Area 2, which 
is the broader area encompassing most of what you see on the 
graphics that are before you.
    The Act was intended to preserve the historic nature of the 
L'Enfant Plan of 1791 and the McMillan Plan of 1901, which 
actually placed museum buildings along the Mall whereas the 
L'Enfant Plan did not. The L'Enfant Plan places Foreign 
Missions, foreign government facilities, chanceries or 
embassies along the Mall, which never materialized.
    The Chairman. Can I ask you something on that aspect? The 
previous panel, I don't know if you were here, panel 1, one of 
the Members testifying had stated that this was consistent with 
the McMillan Plan. Are you saying it is not?
    Mr. Oberlander. Well, we are saying in our testimony that 
we don't believe it is. The interpretation of what is 
officially the McMillan Plan is really in the jurisdiction of 
the Commission of Fine Arts. That Commission should be asked to 
make the official determination. However, looking at the 
McMillan drawings, it did not have a museum building located on 
the preferred site. It may have had a similar type of 
Government (legislative) type of building that was shown on the 
south side of the Mall, but it did not indicate a museum 
function not a building that would be three or four or five 
stories in height.
    Mr. Chairman. Putting the debate aside whether it does 
support or goes against the McMillan Plan for a second, the 
Commission had looked at five sites, and the bill has four now 
as it is in the Senate.
    Any thoughts about whether there should be the five that 
the Commission originally had talked about? And, again, I don't 
know what site would be picked. I have no idea. Any thoughts 
about that? The Commission had five evaluated. Now there is 
four in the bill as it arrives?
    Mr. Oberlander. Well, the testimony that Mr. Cassell gave 
while you were out of the room indicated that we would prefer 
all five be included in the bill, and in addition the--one is 
the Banneker site, which is not in the bill at the moment, 
which is at the southern end of the 10th Street overlook, near 
the channel and the Potomac River, which would be a possibility 
of mooring a slave ship in conjunction with the museum's 
function as part of exhibiting that history.
    The other site that the testimony addresses is the last 
page of this document, a new site that has come about as a 
result of a study that the Federal Highway Administration and 
the Kennedy Center is undertaking. If you can find that graphic 
in our testimony, it shows a site which would be opened up as a 
result of eliminating the on-ramp which now goes onto Memorial 
Bridge, from Constitution Avenue eliminating that on-ramp and 
creating a sizable open area which has no buildings on it now. 
We believe this might be a good location, and should be 
examined by the Smithsonian and the sponsors of the museum as 
another possibility.
    This is not technically on the Mall. But it is within a 
stone's throw of the Lincoln Memorial.
    Mr. Chairman. Thank you very much. The gentleman from 
Connecticut.
    Mr. Larson. Thank you very much, Mr. Chairman. Did youwant 
to say something, Mr. Cassell?
    Mr. Cassell. I wanted to say something about security. May 
I? As an architect, I want to point to the fact that the 
government now is building security installations around the 
Monument, the Capitol, a variety--the Lincoln Memorial and so 
forth. These buildings are already in place.
    And it is assumed that the security that is provided around 
these existing buildings should be effective. For a new 
building, if it is possible to protect existing buildings, and 
for a new building, a part of the design requirements are that 
it must be so designed that it can be protected, that it can be 
secure. And then we have an opportunity to evaluate what the 
architect comes up with.
    But I don't think that we can--since we are not looking at 
an existing building now, we can determine whether it is secure 
or not. I think Mrs. Norton has made the point very well about 
the fact that at this particular point, you know, there is no 
presumed security issue regarding the Capitol site, which we 
would not support simply because it is on the Mall.
    The Chairman. Thank you.
    Mr. Larson. Thank you, sir. That was enlightening. Mr. 
Wright, do you want to respond?
    Mr. Wright. Is it possible we can respond to the 
gentleman's comment on the McMillan Plan?
    Mr. Larson. Happy to yield.
    Mr. Wright. Thank you. I would like Robert Wilkins, who 
headed our site subcommittee to respond to that, please. 
Robert.
    The Chairman. Please state your name and title for the 
record.
    Mr. Wilkins. Thank you, Mr. Chairman. My name is Robert 
Wilkins. I was a member of the Presidential Commission and had 
the honor of chairing the site committee of that Commission.
    I prepared a written testimony which I submitted to your 
staff before the hearing and which you should have before you, 
and attached to that testimony are some slides to illustrate 
some of the points in the testimony and the rationale for the 
Commission's decision.
    The Chairman. Without objection that will be entered into 
the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 89029.026
    
    [GRAPHIC] [TIFF OMITTED] 89029.027
    
    [GRAPHIC] [TIFF OMITTED] 89029.028
    
    [GRAPHIC] [TIFF OMITTED] 89029.029
    
    Mr. Wilkins. With respect to the McMillan Plan, the 
McMillan Plan of 1901 specified very clearly that it would be 
appropriate to place a monumental building on this site. I have 
read the text of the McMillan Plan, and I am not familiar with 
what has been referred to the proposed use of this being for a 
Federal Congressional enclave.
    But be that as it may, I think the issue here is, is a 
building appropriate on the site? Whether it is a Congressional 
office building or this museum, the issue is, is a building 
appropriate for this site? And I think this answer per the 
McMillan Plan is clearly yes. If you look at every depiction of 
the McMillan Plan, you see that.
    Furthermore, there was a reference to the Commission of 
Fine Arts as the appropriate interpreter of the McMillan Plan. 
In 1927, the Commission of Fine Arts hired an architect by the 
name of John Parsons to do a study of that area, and Mr. 
Parsons' study recommended that a building be placed on that 
very site, and he also recommended that the Botanic Gardens be 
moved from the center of the Mall, which is where it was 
located at that time to its present location.
    So the designer of the Botanic Gardens building intended 
and drew a plan that said that there should be a sister 
building on this site that we are talking about. That was 
endorsed by the Commission of Fine Arts. And Congress, in an 
act that was passed on March the 4th of 1929, approved that 
plan.
    So Congress has already approved a plan by the Commission 
of Fine Arts that called for a building to be constructed on 
this site. So I think that should put to rest any issue of 
whether this is in line with the vision of the McMillan Plan. 
And all of that is explained further in my testimony. I would 
be happy to speak with you further about that.
    The Chairman. Thank you. Mr. Larson.
    Mr. Larson. Thank you very much. And I thank all of the 
panelists for their very insightful comments and would join in 
commending the Commission for an outstanding report, would 
recognize, as I believe others have, that while it may differ 
in some respects from Mr. Lewis' and Mr. Kingston's bill, the 
impact and the intent are definitely collectively the same. And 
again I wanted to commend you for that.
    I have questions for the panelists. I would like to start 
with Mr. Wright. And this is coupling on the backs of an 
earlier conversation that was raised by Mr. Kingston and Mr. 
Mica. The Commission's final report was predicated on a 75/25 
public-private funding ratio, 75 percent appropriated funds and 
25 percent private contributions. The fund-raising report 
provided a positive analysis about the prospects of success for 
raising the 25 percent. However, the Lewis-Kingston bill 
contains a 50/50 public-private breakdown of funds. Do you 
think the larger amount is achievable?
    Mr. Wright. Well, as I state in my testimony, $180 million 
certainly presents a challenge. But also I feel that the 
potential, as I stated, for raising money for this particular 
purpose certainly is there.
    I think the first step obviously has to be when Congress, 
in your wisdom, should you enact the legislation, identifying a 
site, I think then the ability to raise money is greatly 
enhanced.
    There are many corporations, private citizens through our 
surveys and through the fund-raising surveys who have indicated 
a willingness to contribute. And I guess the bottom line answer 
to your question is, although $180 million in the legislation 
is a challenge, I certainly think it is achievable.
    Mr. Larson. The Commission report recommended separate 
access by the new museum's council to major donors. But under 
the Smithsonian practice, the regents decide how to allocate 
fund-raising priorities and donor access, and this bill does 
not change that. Can the museum fund-raise successfully within 
this structure?
    Ms. Brown. My own history is that I have worked for the 
Smithsonian for 5 years as the Deputy Assistant Secretary for 
Museums, and I recognize all of the burdens that Secretary 
Small has mentioned and his responsibility to the entire 
institution.
    But I am also aware that when a new museum is raising 
moneys, that they are in the position to bring aboard 
individuals or a capital campaign group that will help them in 
that fund-raising initiative. The fund-raising group that we 
used as our consultants for this work included Alice green 
Burnette, who was head of institutional advancement at the 
Smithsonian and worked on the Museum of the American Indian, 
and Dick Taft, who worked both on the Museum of the American 
Indian and the Holocaust Museum.
    And we believe that with that team in place, a team that is 
knowledgeable about Smithsonian practices and a team that also 
has had experience raising money for two national museums, that 
we would be able to reach our goals and be true to the 
guidelines and parameters of the Smithsonian.
    Mr. Larson. I guess I should ask Secretary Small if he 
believes that the new council that will be established and 
their access to donors and the regents and the current 
Smithsonian policy would be compatible in this process? Again, 
everybody wants to make sure that we have the optimal 
opportunity to achieve and reach the anticipated $360 million 
goal.
    Mr. Small. I don't think there is any incompatibility with 
the processes of the Smithsonian. I think the biggest issue 
involving fund-raising is that there be absolutely no question 
about the Federal Government's commitment to itspart of the 
project, both from the standpoint of the capital funds to build the 
museum and the commitment to provide operating funds later on.
    That is really very important. If you do not have the 
commitments of the government to do its share of the project in 
whatever form the legislation calls for, right up front, the 
ability to get private sector donors to come in, if there is 
any doubt about what the government is going to do, becomes 
very limited.
    Another thing that would be very helpful in this 
legislation is to make it like the legislation that was passed 
for the National Museum of the American Indian, which permits 
the use of Federal funds within the National Museum of the 
American Indian to do fund-raising, because without having the 
ability to start this and have money so that you can actually 
raise funds from the private sector, you have to ask private 
sector donors to give money to form a fund-raising department. 
There are very few private sector donors who want to do that. 
So that would be one change in the legislation that I think is 
very, very important.
    Mr. Larson. Well, to follow up on that. I thank Mr. Wright 
for your comments. To follow up on that, Secretary Small, there 
has been a long-standing controversy surrounding the 
Smithsonian's policy over how far to go in allowing the use of 
corporate names or private donors' names in buildings, exhibits 
and other aspects of the Smithsonian activity.
    What is the current Smithsonian policy on this, and would 
the new museum be treated in the same way as others in this 
regard?
    Mr. Small. The Smithsonian's policies have been in place 
for quite a long time now, policies passed by our Board of 
Regents, in which they have a tremendous involvement, not only 
from a policy standpoint, but also from an operational 
standpoint, and there are very, very clear guildelines as to 
how you recognize donors.
    Of course, in many ways donor recognition goes right back 
to the beginning of the Smithsonian, since it is in fact named 
for its first donor, James Smithson, as are museums such as the 
Hirshhorn Museum or the Sackler Gallery. So I think there is a 
long history of donor recognition, not only in the Smithsonian, 
but throughout the United States in hospitals, universities, 
libraries and such. And I think the policies have served the 
Smithsonian well.
    I believe this museum would be treated in precisely the 
same way that we treat our other museums, including the more 
recent national museum, the National Museum of the American 
Indian, which adheres to the exact same policies.
    Mr. Larson. Thank you. Mr. Cassell, obviously in your 
testimony you would have preferred to see sites included that 
aren't in the final recommendation, and is it my understanding 
there were two additional sites, the Banneker site and the----
    Mr. Cassell. Your Exhibit 2 will show a second site which 
is near the Kennedy Center.
    Mr. Larson. Right.
    Mr. Cassell. Off the Mall and near the Rock Creek Park 
driveway. And if you have a look at that, you can see that it 
is--there are about six acres there. It would be a very 
prominent site. It would overlook the Mall. It would attract 
much attention simply because it is near the Kennedy Center and 
presumably it would be eloquent architecture.
    Mr. Larson. Is that the Banneker site?
    Mr. Cassell. No, no, no. That is--in fact, we just found 
that site. Do we have a name for the site?
    Mr. Oberlander. No, no yet.
    Mr. Cassell. The Banneker site is if you are driving along 
Independence Avenue, you turn right and left and go down 10th 
Street. At the end of 10th Street is an overlook that looks 
over Maine Ave. and Water Street and into the river, and that 
is called the Benjamin Banneker site. It is isolated, but yet a 
structure on that site would be very, very prominent.
    In fact, I think that it would draw attention from the Mall 
to people who are interested not only in the meaning ofthe 
memorial building, but its impressiveness. If buildings are to be built 
on the Mall then they are going to have to conform to the existing 
Federal Architecture. I mean, you can't have something that is very, 
very different adjacent to the United States Capitol.
    But at the overlook site, you can do something like the--
well, I don't know what to point to, but you know that the 
Kennedy Center is not similar to any other buildings in this 
city. So that if there were to be something built on either of 
those sites, the one that is near the Kennedy Center, we just 
discovered that, and the 10th Street overlook, then those 
buildings would be or could be very attractive. And in your 
requirements for that, you could build in the requirements for 
such security as we thought were necessary.
    Mr. Larson. And in the view of the Commission, was the site 
near the Kennedy Center viable?
    Ms. Brown. That site was never under consideration.
    Mr. Oberlander. May I add, the reason it wasn't under 
consideration probably is it has a bridge access ramp on it 
right now from Constitution Avenue to the Roosevelt Bridge. 
That ramp is proposed by the Federal Highway Administration, in 
the redoing of all of the highway network in front of the 
Kennedy Center, to be eliminated. Thereby that site would 
become, when the construction takes place, would become 
available.
    Mr. Wright. Congressman, our task, as specified in the 
legislation, was to identify a site on or near. I think that is 
basically what the legislation said. And we tried to sort of 
stay within these guidelines, stay within that framework. That 
is probably why we didn't look beyond the statement on or near.
    Mr. Larson. Well, just if I might follow up, Mr. Chairman. 
Just in--can I take it that all of the panelists are in 
agreement with regard that security issues can be addressed, 
whether in the establishment of a new building, and making sure 
that the architecture reflects that so you are building in that 
security or safeguarding?
    My question would be to Mr. Small again. Given the site on 
the Capitol and the overlap that perhaps would exist between 
the Capitol Police and Smithsonian, how do you envision that 
being worked out?
    Mr. Small. Congressman Larson, I think you touched on a 
very important issue for the Smithsonian. Right now, of the 
four sites that are in the legislation, one of the sites is 
already within the Smithsonian, the Arts and Industries 
Building. Two other sites are set in the legislation so that if 
the Board of Regents were to choose either the monument site, 
which is west of the American History Museum, right near the 
Washington Monument, or if it were to choose the Liberty Loan 
site, those two, because they are under the jurisdiction of the 
General Services Administration and the National Park Service, 
the administrative jurisdiction over those would automatically 
switch to the Smithsonian.
    The legislation doesn't mention that in regard to the 
Capitol site. So as these discussions wind their way through 
Congress on which site and what should be included in this, 
what is very important for us is that it be very clear that 
when the site is chosen that we get the administrative 
jurisdiction for it right away so we don't have all sorts of 
conflicting debates because that will dampen the ability to 
raise money from the private sector in a huge way.
    If people think there is a hassle as to which building it 
is going to be, which site it is going to be, who is going to 
have jurisdiction over it, it will create enormous confusion 
and make the museum very difficult to get off the ground.
    Mr. Larson. I thank the panelists for their comments.
    Mr. Chairman. Thank you. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Cassell, you mentioned in your testimony that the 
procedure that is outlined, I believe, in the proposed 
legislation violates some of the existing laws and/or 
procedures for approval of a site on the Mall. Is that correct?
    Mr. Cassell. Yes. The Commemorative Works Act, which Mr. 
Oberlander has referred to--would you want to speak to that?
    Mr. Oberlander. Well, there are, besides the Commemorative 
Works Act.
    Mr. Mica. We also have the Commission on Fine Arts and the 
National Capital Planning Commission. And would this 
legislation supersede all of those processes?
    Mr. Oberlander. Well, the legislation mentions only 
consultation with the chairman of each of those two 
commissions.
    Mr. Mica. So that wouldn't go through the normal approval 
process for siting?
    Mr. Oberlander. That is correct, Senator--sir.
    Mr. Mica. I love that. Go ahead.
    Mr. Oberlander. But the National Capital Planning Act of 
1952----
    Mr. Mica. So what it is doing is having Congress mandate 
another structure or monument?
    Mr. Oberlander. Right. In our opinion that would be the 
case, yes.
    Mr. Mica. And your group definitely testified that we 
should concur with the different processes to see that it does 
fit, conform, and is sited according to the laws and other 
requirements and procedures that we require for building?
    Mr. Cassell. I think we are required to do that, are we 
not?
    Mr. Mica. Well, you haven't been around here long enough. 
We pass the laws and we can do anything we want.
    Mr. Cassell. Oh, yes. There was the World War II Memorial. 
That is right.
    Mr. Mica. Exactly. And now did the Native American Indian 
project go through all of these hoops? It did?
    Mr. Oberlander. Yes, sir, it did.
    Mr. Mica. That gives me great fright too, because I am not 
sure about that one.
    Mr. Oberlander. That was the only formally designated site 
on the National Mall that asked for another museum building to 
compliment the building of the addition to the National Gallery 
on the north side.
    Mr. Mica. It went through all of the processes?
    Mr. Small. I believe it did so voluntarily, though, 
Congressman. I don't know that it is required for those 
buildings.
    Mr. Mica. Okay.
    Mr. Wright. Mr. Mica, can we respond to that?
    Mr. Mica. Go right ahead. Yes.
    Mr. Wilkins. Thank you, Mr. Mica. I wanted to again, as 
chair of the site committee for the Commission we studied these 
issues very carefully, the legal issues involved, and as a 
lawyer, I am very sensitive to those issues. But we should be 
clear about a couple of things, because I think that there is 
some clarification needed here. The Commemorative Works Act 
does not apply to museums, it applies to monuments and 
memorials, and so there is nothing about this legislation that 
would violate the Commemorative Works Act, because the 
Commemorative Works Act doesn't apply to museums.
    Mr. Mica. What about the National Capital Planning 
Commission procedures?
    Mr. Wilkins. There is no set procedures or laws that I am 
aware of that govern the siting of museums. Congress has done 
it any number of ways over the years. For the Hirshhorn Museum, 
for the Air and Space Museum, for the Museum of the American 
Indian, Congress designated the specific site where those 
museums would be located.
    There was no procedure where you went through the National 
Capitol Planning Commission, the Commission of Fine Arts or 
anyone else. For the Holocaust Museum, Congress specified that 
the site would be designated by the Secretary of the Interior 
in consultation with the National Capitol Planning Commission.
    Mr. Mica. I think that is one of the points that I tried to 
raise here today, is what is our policy and procedure, andthis 
does set a precedent. Now, the Native American is an exception. Of 
course the Native Americans were here before African Americans or all 
of the rest of us who came, and maybe that is a legitimate exception, 
but we are carving out for one particular group. Everything else that I 
know of relates to all Americans. The Smithsonian activities along the 
Mall are all Americans. I don't consider the Holocaust on the Mall 
itself. It is close by.
    But that is, again, and I think that is a Federal policy 
question and procedures that we need to adopt, because if we do 
this for this particular museum and it ends up on the Mall, we 
have set a precedent for the future, whether it is a monument 
or a building.
    Mr. Wilkins. I guess my point is that precedent exists, 
because Congress designated again for the Air and Space 
Museum----
    Mr. Mica. That was for every--it doesn't pick out any one 
group, not American natural history--all of the activities 
along the Mall relate to all Americans. The only exception to 
that is Native Americans, and they certainly have a unique 
place as far as being the possessors of this land before any of 
us got here.
    And again I want to set out in fairness that we treat 
everyone equal in this process. But the ultimate goal should be 
that at the end of what we establish as policy, that we don't 
end up with a Mall that is a helter-skelter of buildings and 
monuments and whatever you have, that Congress by committee 
creates a disaster for generations. We have gotten this far, 
200 years, we have done some damage. I am hoping that we can do 
good in the future in an orderly fashion. And again, no offense 
to anybody.
    Finally, Mr. Small, you said you have more than a billion 
dollar backlog and all of that. Congress can still authorize 
these projects. The Native American Indian Museum has 
operational costs which are estimated at what annually?
    Mr. Small. When it is up and running, in the $30 million 
plus range per year.
    Mr. Mica. Okay, And probably this museum, which is based on 
similar square foot exhibition space and activity space would 
be somewhat similar?
    Mr. Small. On the assumption that the plans and the 
collections and all of the other needs came out to be similar, 
yes.
    Mr. Mica. So Congress will have to appropriate not only 
capital money, but also operational money. And for the record, 
you would estimate it would be in the what range?
    Mr. Small. $35 to $40 million range. And the answer is 
unquestionably yes.
    Mr. Mica. Just for the record. Thank you.
    Mr. Cassell. May I say something?
    Mr. Mica. If you wanted to respond to something.
    Mr. Cassell. Yes, regarding fairness. You mentioned that 
there are many ethnic groups in this country, and if they all 
wanted representation on a particular location, we would have a 
helter-skelter. There is something very special about Native 
Americans and something very special about African Americans.
    I think Congressman Lewis mentioned the fact of healing. 
That healing means that something has happened that we would 
like to compensate for, and that only applies to the Native 
Americans and to African Americans. It was a long time before 
this came about. As has been mentioned, 100 years ago is the 
first time this was mentioned.
    It wasn't something special for a special ethnic group, it 
was to recognize the existence, the participation in developing 
this Nation, the struggles that they have gone through.
    Mr. Mica. I appreciate that. I don't want to interrupt you, 
and I agree with all of that. I would even agree that taking 
that existing structure that is there and renovating it that is 
on the Mall, I have no problem with that. I have cited that one 
of the finest buildings I have seen, which I got a study done a 
couple of years ago, the FTC building, which is waiting for an 
occupant, is one of the most prominent locations.
    But we are talking about constructing another building and 
setting Federal policy for the future. And in fairness for all 
Americans, and maybe we want to divide it up now, and, you 
know, I want my Italian American part on--I don't deserve as 
much as the African Americans, and then the Slovak, we could do 
a little sliver along the site. And I have got--my wife has 
some Irish and English. And certainly all of the other groups 
that would want representation, Japanese Americans, et cetera. 
But again, you see where we are setting policy and precedent. 
And I just want it done right and fairly. And certainly the 
African Americans should have as prominent a location as anyone 
who is recognized and we create this structure for and 
structures for others.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I want to thank all of the 
witnesses for your testimony. And with that we will move on to 
the third and last panel. I want to welcome our third and final 
panel to the table.
    Joining us is Jeff Trandahl, Clerk of the House of 
Representatives, Alan Hantman, Architect of the Capitol, Robert 
Howe, Assistant Chief of the United States Capitol Police. In 
addition Robert Greeley, Director of the Security and Services 
Bureau of the United States Capitol Police is also here today 
and is able to answer questions.
    I want to thank all of the individuals that have come here 
today. And again we are starting with the Clerk of the House, 
Mr. Trandahl.

 STATEMENTS OF JEFF TRANDAHL, CLERK, HOUSE OF REPRESENTATIVES; 
ALAN HANTMAN, ARCHITECT OF THE CAPITOL; ROBERT HOWE, ASSISTANT 
  CHIEF, U.S. CAPITOL POLICE; ACCOMPANIED BY ROBERT GREELEY, 
    DIRECTOR, SECURITY SERVICES BUREAU, U.S. CAPITOL POLICE

                   STATEMENT OF JEFF TRANDAHL

    Mr. Trandahl. Mr. Chairman, Mr. Larson and members of the 
committee, I appreciate having the opportunity to appear today 
to provide observations relative to H.R. 2005, a bill to 
establish within the Smithsonian Institution, the National 
Museum of African American History and Culture.
    I have been asked to comment on the precedents for using 
Capitol properties for such endeavors per my position on the 
House Commission on Fine Arts.
    As the committee is aware, four sites and also the Arts and 
Industries Building in the Smithsonian Institution have been 
evaluated for construction of a 350,000 gross square foot 
facility. The report outlined a strong preference that a new 
museum be located on the National Mall. Two particular sites 
were identified--the Capitol site and the Monument site.
    For reference, the new facility, as planned, would be 
approximately the size of the American Indian Museum that is 
currently under construction on Independence Avenue Southwest.
    The Capitol site is located along the north side of the 
reflecting pool. The Monument site is located on the National 
Mall near the American History Museum and the Washington 
Monument.
    Regarding the Capitol site location: in reviewing the 
history of the construction of buildings and monuments on the 
Capitol grounds, I have not been able to identify a comparable 
situation when Congress has been asked to either transfer or 
hold properties that would allow for the construction of a non-
congressional building or buildings.
    However, examples of smaller land transfers between the 
Architect of the Capitol and Federal agencies have occurred to 
allow for the construction of monuments and for other purposes. 
These examples are smaller in scope and are not in areas of 
high prominence like the Capitol site identified in this 
report. A current example of such an exchange of property 
occurred between the Architect of the Capitol and the National 
Park Service under Public Law 104-333 to allow for the 
construction of the Japanese American Patriotism Memorial on 
new Jersey Avenue Northwest.
    Clearly, actions to release this parcel, due to its sizeand 
prominence, or to allow for the construction of any non-Congressional 
building on Congressional grounds would be precedent setting. If 
allowed, it could open Congress to other similar requests and other 
parts of the Capitol grounds could become vulnerable.
    Thus, it is my belief that the ability of Congress to 
determine or to meet its future needs on the existing Capitol 
grounds could be threatened and/or limited. In addition, it is 
important to note that this parcel has already been designated 
under Public Law 107-68 as a site for the Congressional Award 
Youth Park.
    The Commission's report has evaluated this concern and has 
recommended ways to meet both objectives. Further study would 
be advisable prior to reaching that conclusion. Clearly the 
construction of any building brings controversy and criticism. 
I am confident that, under the stewardship of this committee 
and the sponsors of the legislation this museum will finally 
become a reality.
    The question of the day remains to be where to locate it. I 
am not here to advocate for any location, but I have to ask the 
Members to pause, prior to allowing any non-Congressional 
building to be constructed on existing Capitol grounds.
    Significant changes have occurred throughout the Capitol 
complex these last several years, and I believe any loss of 
area or loss of control of area could be detrimental to those 
efforts.
    I appreciate you allowing me the opportunity to appear.
    [The statement of Mr. Trandahl follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.017
    
    [GRAPHIC] [TIFF OMITTED] 89029A.018
    
    [GRAPHIC] [TIFF OMITTED] 89029A.019
    
    [GRAPHIC] [TIFF OMITTED] 89029A.020
    
    The Chairman. Thank you. And now we will move on to the 
Architect of the Capitol.

                   STATEMENT OF ALAN HANTMAN

    Mr. Hantman. Thank you. Good afternoon, Mr. Chairman, 
Ranking Member Larson, committee members. As Architect of the 
Capitol, I am often called upon to provide technical assistance 
and recommendations with regard to proposed projects in and 
around the Capitol complex.
    In order to have meaning, such recommendations need to be 
based on a foundation of information that has been developed 
and evaluated in the context of the current and projected needs 
of the Congress.
    In this context, issues associated with potential 
development and changes throughout the Capitol complex, such as 
the requested use of Square 575 for the National Museum of 
African American History and Culture, continue to be raised 
with no clear guidelines to inform the Congress' decision-
making process by reflecting the comprehensive and integrated 
evaluation of all issues.
    Therefore, there is an urgent need to address relevant 
issues with respect to the entire Capitol complex. Congress 
recognized this in fiscal year 2002. And in response to its 
request for a long-term plan, my office is currently proceeding 
with the development of a new Capitol complex master plan.
    Following is a brief discussion of this process and the 
issues that need to be addressed for all parts of the Capitol 
grounds. As the first step in the process, the National Academy 
of Sciences was retained to conduct a workshop in September of 
2002 by constituting a panel of experts in planning, 
engineering, architecture, landscape architecture, 
transportation, historic preservation and related disciplines.
    Based on the NAS report, funding in the amount of $4.2 
million has been requested in the 2004 budget. Our budget 
language regarding this states: This project provides funding 
to plan and execute a Capitol complex master plan. The existing 
master plan is 22 years old and does not address facility 
requirements brought about by the Congressional Accountability 
Act, nor does it relate to the present security environment. 
There is insufficient global input to fully address all 
necessary decision factors. Therefore, a new master plan for 
the Capitol complex needs to be developed.
    Now, the nature of this master plan process, which would 
include the entire Capitol complex as well as Square 575, will 
look at the following as defined by the Academy ofSciences: The 
process should be inclusive and participatory in that stakeholders must 
have input to facility requirements. The historic context must be 
respected and enhanced. The recommendations should be vetted with an 
expert advisory panel before a recommended plan is finalized.
    The plan should be comprehensive and state of the art, 
utilizing advanced technologies and data bases to support 
decision-making. This includes safety and fire compliance, 
planning for physical security needs, the preservation of 
historic facilities, and planning for complex-wide utilities 
distribution systems.
    The plan should be based on a consensus driven vision for 
the entire complex, the District, and the region, especially 
focusing on urban design, including integration with 
surrounding areas and District plans; land use, including 
development concepts, landscape and open spaces, and 
circulation and transportation systems integrated with local 
and regional systems.
    In anticipation of receiving the master plan funding in 
2004, work continues on developing the scope of work, with a 
request for proposals expected to be issued in October of this 
year upon receipt of funding.
    Going forward, when any potential use or physical 
development is considered anywhere within the Capitol complex, 
it is expected that the master plan will facilitate an 
objective evaluation of possible sites, including Square 575, 
and how they could be used and appropriately developed.
    Square 575 specifically is a unique site that cannot be 
considered in isolation. It is a transition site between 
Capitol Hill and the Nation's Mall and needs to be studied in 
that context.
    We stand ready to serve the needs of the Congress in 
whatever capacity it believes appropriate and answer any 
questions you might have.
    Thank you, Mr. Chairman.
    [The statement of Mr. Hantman follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.021
    
    [GRAPHIC] [TIFF OMITTED] 89029A.022
    
    The Chairman. Thank you. And Assistant Chief Howe.

                    STATEMENT OF ROBERT HOWE

    Mr. Howe. Thank you, Mr. Chairman. If it serves your needs, 
I will abbreviate my opening remarks and submit the balance of 
my statement for the record.
    I thank you for the opportunity to appear to testify before 
the committee on the potential impact of the museum on the U.S. 
Capitol Police.
    The proposed museum will be a multi-story 350,000 square 
foot structure, and will be of similar stature as the National 
Museum of the American Indian currently under construction. The 
museum will have operations that will require logistical 
support for a protected staff of 300 persons, large collection 
areas, dining and a museum store, and I believe testimony today 
was approximately 2 million visitors a year.
    While there are a number of security-related issues 
attendant to this project, they should not be viewed as an 
impediment to any decision regarding the proposed site.
    As addressed in my written testimony, the proposed museum, 
like any large facility, will have an impact on the operations 
of the Capitol Police. Given appropriate resources, we can 
properly protect both the Capitol and the new museum, while 
minimizing any impact.
    Mr. Chairman, I will submit the balance of my written 
testimony for the record. I thank you for your time, and we 
will be happy to answer any questions you may have.
    [The statement of Mr. Howe follows:]
    [GRAPHIC] [TIFF OMITTED] 89029A.023
    
    [GRAPHIC] [TIFF OMITTED] 89029A.024
    
    The Chairman. Thank you. As I understand, Mr. Greeley is 
available for questions.
    Mr. Howe. Yes, sir.
    The Chairman. I will be brief, because I think we are going 
to have a series of votes.
    For the Clerk of the House, you mentioned the proposed 
Capitol site has already been designated as a Congressional 
Award Youth Park. What type of park would that be, and where 
are we at in terms of establishing or making that happen?
    Mr. Trandahl. In the 107th Congress, Congress acted to 
create an award park on that parcel. It is currently still in 
the design phase at the Architect of the Capitol's level. The 
exact design and scope of the project is really yet to be 
determined. However, it did identify the purpose of the 
memorial and the location of the memorial.
    The Chairman. Thank you. And for our Assistant Chief, do 
you have any idea how many additional resources you would need 
to secure the complex if the museum was built on the Capitol 
site? And would you envision policing the interior of the 
museum, or exterior, or both? And if it were just exterior, 
would you have concerns about that?
    Mr. Howe. Mr. Chairman, it is a bit too early for us to 
tell precise numbers as to what it would take to police the 
site. I think our vision would be that the Smithsonian police 
would provide the security for the interior of the building. We 
would patrol the exterior of the building. I don't have any 
concerns about that. We have a number of other similar 
operations going on throughout the grounds, the Supreme Court, 
the Library of Congress, the Thurgood Marshall Building, Union 
Station, where we work with public and private entities, and 
work very well and provide very good security in all of these 
contexts.
    The Chairman. This question would be, I would think, for 
the Architect or for the Capitol Police. Understanding there 
will be a need for parking or bus drop-off for tourists and 
there will be a need for delivery trucks to make stops at the 
museum, how will that work with the typical screening process 
if we apply what we do screening-wise on Capitol grounds to 
that building?
    Mr. Howe. What we have discussed preliminarily is adding 
this building to our delivery screening process and process 
their deliveries through our screening center before they 
arrive on site.
    Parking and traffic around the structure are going to be 
major concerns. The Senate has Pennsylvania Avenue pretty well 
parked full, and they will have to make arrangements on that 
street. Constitution Avenue, as you know, has no parking. So 
that is one of the issues that will have to be addressed. But 
it is addressable.
    The Chairman. Would you need additional personnel to do it?
    Mr. Howe. There would be a requirement for added patrols 
around the building to handle the parking and traffic issues, 
things of that nature.
    The Chairman. And if a Capitol complex wide evacuation was 
ordered, would we be able to accommodate and secure the 
visitors and the staff of the museum?
    Mr. Howe. We would have to incorporate them into our 
overall plan.
    The Chairman. Last series of questions I have would be for 
our Architect of the Capitol. From the perspective of your 
office, what are the top issues that we are looking at with the 
creation of a museum on the Capitol grounds? Of course it would 
make it convenient; you could go from the Visitors Center over 
to the other one. I want to commend you publicly for your 
diligence on that.
    Mr. Hantman. Thank you, Mr. Chairman. In my testimony I 
basically indicated that we really need to be able to give the 
Congress a matrix for them to be able to make informed 
decisions from, and I think Congressman Mica was going in that 
direction. How does Congress make decisions based on properties 
along the Mall, other museums.
    I think we need that same type of flexibility to have a 
real basis of information that the Congress can look at, 
evaluate, and we can make recommendations based on that sothat 
informed decisions can be made by the Congress.
    There was a master plan done back in 1981. That master plan 
talked about the uses of land in the Capitol complex. And for 
Site 575, it showed that it was in the landscaping area, to be 
an open formal landscape plan. I think the gentleman from the 
Society to Save the mall also talked about the National Capital 
Planning Commission legacy Plan of 2000, which did not show any 
activity on that location.
    And of course there is another plan; the National Capital 
Planning Commission has the Memorials and Museums Master Plan 
in December of 2001, which has not been formally adopted by the 
Congress, but it does show that there is a reserve for not 
using museums or memorials within that reserve, and they do say 
that on the grounds of the Capitol the Commemorative Zone Map 
recognizes the Capitol grounds are inappropriate locations for 
the construction of monuments or memorials.
    What we need to do, I think, is really talk to all of the 
agencies in our surrounding community. We need to talk to the 
National Capital Planning Commission, we need to talk to the 
Park Service. We need to talk with the Fine Arts Commission, 
with the D.C. Government, and talk about transportation issues, 
other areas and elements that impact all of Capitol Hill, 
including Site 575.
    So it really comes down to a master plan, examining all of 
the issues, bringing on some of the experts that would look at 
the future growth of the Capitol, analyze the current needs and 
how it would impact that.
    The Chairman. I am going to make this brief, and I will put 
the rest in the record of questions I have, because I think 
there will be a vote. What about our infrastructure? You know, 
very briefly, would our current infrastructure have to be 
enhanced, the running of power, as we are dealing with the 
Visitors Center, chilled water, et cetera? Would that come from 
the Capitol complex or would that be separate?
    Mr. Hantman. Mr. Chairman, I don't know the loads and the 
requirements of a facility of 350,000 square feet. I would have 
to check also in terms of where our utility lines currently run 
relative to that specific site. But as you know, we are 
modernizing our chilled water area. We are upgrading a lot of 
our utility tunnels.
    And also I understand that the Smithsonian is taking a look 
at upgrading their utilities as well and looking at a 
centralized plant to serve all of their museums. We would have 
to get together and take a look at what was the most 
appropriate way to serve a structure like this.
    The Chairman. So is our current infrastructure as it sits, 
if we had to supply it, is it adequate?
    Mr. Hantman. I wouldn't think so, Mr. Chairman.
    The Chairman. Mr. Larson.
    Mr. Larson. Well, thank you very much. Thank you all very 
much for your testimony. Along those lines, first from the 
standpoint, obviously the legislation is silent on the 
selection of a site. Now, we have heard testimony today, I 
guess it would--I would have preferred to have seen all sites 
included. But there is nothing within this legislation or 
nothing that I have heard before the committee today that 
should prevent this legislation from moving forward in terms of 
site selection.
    It is, however, my understanding that if any other site 
other than the Capitol site is chosen, the Smithsonian moves 
specifically in that area. Am I correct in assuming that if the 
Capitol site were chosen, that it would require additional 
legislation to address the concerns that the Architect and the 
Clerk raised?
    Mr. Hantman. My understanding, sir, is that the property 
would most likely be transferred to the Smithsonian, and that 
would take certain legislation to accomplish that.
    Mr. Larson. Well, with respect to a number of the issues 
that you raised, specifically about the matrix for the Capitol, 
would that also require legislation there?
    Mr. Hantman. I am not sure about your question, Mr. Larson.
    Mr. Larson. You had indicated that, you know, dating back 
to 1981, that there was a proposal for the Capitol grounds. The 
Clerk enumerated about the youth playground, et cetera.
    It was my concern as to whether or not, you know, that 
violates a specific--that would require a statutory change. 
That is my question.
    Mr. Hantman. Well, the master plan for the U.S. Capitol was 
never formally accepted by the Congress. If we are going 
through a master planning process now, Mr. Larson, I would 
assume that we would go through a process that would be vetted 
well and that the Congress would accept it as guidelines for 
them. But in terms of legislation, I think clearly there would 
have to be legislation relative to the use of that site.
    Mr. Trandahl. The only example that I can give you where we 
did a similar release or transfer of land, is that Japanese 
Patriotism Memorial that was built on New Jersey Avenue. It 
took a specific act of Congress in order to allow for that land 
transfer to happen. You are basically faced with two scenarios 
if you choose the Capitol site. You are either going to retain 
control of the property as part of the Capitol grounds and 
build a noncongressional structure on it or you are faced with 
releasing the grounds out of the Capitol grounds site and then 
a noncongressional building would
be----
    Mr. Larson. And that would require additional legislation?
    Mr. Trandahl. Either way you are going to need legislation 
in order to address the issue. Then there are secondary 
questions regarding how you administer in either of those 
situations, which are achievable; they are just commissioned.
    Mr. Larson. I was glad to hear you say that. If that were 
the course that goes down and if in the ultimate process, 
though, these are achievable ends, if that site were selected, 
depending upon what scenario you would choose, either keeping 
it within the context of the Congress or ceding that spot over 
to the Smithsonian?
    Mr. Trandahl. Yes, you could do it either way. However, I 
have to say, you have limited assets up here at the Capitol. 
The points I was making are, one, you have already designated 
that a memorial would be build there and, two, you have 
something that can only be given away, in essence, once. I 
think the Capitol and the Congress need to be careful and weigh 
very heavily a decision to enter into any release of land 
around the building. That is my only point to make.
    Mr. Larson. But if the release was such and let's say for 
instance that the decision was made to keep it within the 
Capitol, under the control of the Capitol, then all security 
issues with respect to the Capitol police would dissipate in 
terms of having to deal with the Smithsonian and you might be 
able to accommodate these concerns.
    Mr. Howe. I think not necessarily, Mr. Larson. Look at the 
current configuration of the Smithsonian on the Mall and the 
Smithsonian provides the security for the interior buildings. 
The Park Police actually police the exterior of the buildings 
on the Mall and deal with the traffic problems and things of 
that nature around the buildings. I would think it would be 
very similar here under either scenario that you come up with, 
whether you transfer the land to the Smithsonian or whether it 
is retained as Capitol grounds.
    Mr. Larson. I thank you for your testimony. Do you have any 
other questions. Mr. Chairman?
    Mr. Chairman. One thing I would like to ascertain as quick 
as we can is a little bit more detail estimate from the Capitol 
police, and you don't have to call the number, on a few things, 
because I want to make sure. I am not saying this should be the 
site. I want to make sure if it is we know fully what we are 
getting into. How many anticipated officers we would need if 
there is an evacuation of the complex, how do we do it, because 
they are on Capitol property if it remains within the Capitol, 
we basically lease it or, you know for free or however that 
would work. As a result of that and if somebody come to the 
Capitol or there is additional security concerns or somebody 
comes and does some type of threat to the Capitol, do we then 
put every single person through a screener there in the 
proximity of that? Do buses come in? I think we just need to 
know what we are getting into dollarwise because I wouldn't 
want to get into it and now somebody comes back within X amount 
of years here and says oh, by the way, we now need an 
additional amount of people or security devices or we should 
have put proper security in in the first place because it is on 
the grounds of the Capitol which is a more imminent threat. I 
think if we can work with you soon just to get some ideas so we 
know what we are into. The final two questions I would have 
very quickly is one for the architect, would youanticipate 
there would be substantial modifications to the Capitol grounds in 
order to facilitate the ability of buses and cars to be able to drop 
off visitors at the proposed museum?
    Mr. Hantman. I think, Mr. Chairman, what we really need to 
do is in light of the Capitol Visitors Center as well as any 
potential museums adjacent to the site is take a look at the 
traffic flow throughout the area. We have met with the D.C. 
government, the Department of Transportation, with the tour 
guide folks, and they are all interested in trying to come up 
with a universal solution that solves problems for everybody. 
That needs to be worked out in great detail but clearly if we 
are talking about another 2 million people coming on an annual 
basis to be added to several million people at the Capitol 
already, that becomes an issue that needs to be discussed with 
all interested parties.
    The Chairman. My last question, I think, Mr. Mica asked 
this of the previous panel. One, if the African American Museum 
would be 350,000 square feet in size, Botanical Gardens 47,000 
square feet, any ideas of the perspective of the balance of the 
two on property across from each other or any proposed layout 
issues that are there?
    Mr. Hantman. There were only two small sketches basically 
in the proposed, the report that I have seen thus far and it 
basically tries to put all of this space on the eastern side of 
the site because there is a tunnel going under the site. 
Potentially there could be gardens on top of the tunnel 
portion. But this site also has a high water table, so there is 
an issue of how much you can really put below ground and how 
much would be then above ground. The Botanical Gardens 
basically just has mechanical space at the new addition to the 
rear on Independence Avenue that is below ground. All the rest 
of it sits on the top.
    The Chairman. I think also there are some other security 
issues in relationship to the Botanical Gardens. The private 
venue will share with the sponsors of this bill and the Capitol 
Hill police that we also need to look at understanding some 
sensitive security issues down the road. We will work with you 
quickly, I should add, to do that.
    If there are no further questions, I want to thank our 
ranking member and the members of both sides of the aisle that 
were here today. I also want to thank Congressman Larson and 
his staff as well as again the other members' staff. I ask 
unanimous consent that members and witnesses have 7 legislative 
days to submit material into the record and for those 
statements and materials to be entered in the appropriate place 
in the record. Without objection, the material will be so 
entered. I also ask unanimous consent that staff be authorized 
to make technical and conforming changes on all matters 
considered by the committee at today's hearing. Without 
objection, so ordered.
    Having completed our business, that will concluded the 
hearing. We are adjourned. Thank you.
    [Whereupon, at 5:05 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
